No. 19In the

Supreme Court of the United States
MICHAEL CETTA, INC.,
d/b/a Sparks Steakhouse,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the
District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

Jon Schuyler Brooks
Counsel of Record
Marc B. Zimmerman
Freeborn & Peters LLP
230 Park Avenue, Suite 630
New York, NY 10169
(212) 218-8760
jbrooks@freeborn.com
Counsel for Petitioner
292511

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1. Whether the Court of Appeals erred in holding
striking employees had been discharged in violation of
the National Labor Relations Act (“NLRA”), even though
none of the striking employees ever claimed they had been
discharged, by finding a hypothetical prudent employee
reasonably could have concluded the employer’s allegedly
ambiguous statements meant striking employees had been
discharged?
2. Whether the “mutual understanding” of “permanent
employment” required by NLRB v. Mackay Radio &
Telegraph Co., 304 U.S. 333 (1938), and its progeny is
established under the NLRA when an employer issues
offer letters of permanent employment to replacement
employees, and those employees thereafter commence
(or continue) employment, all prior to the time striking
employees deliver to the employer an unconditional offer
of return to work?

ii
PARTIES TO THIS PROCEEDING
The caption of this case contains the names of all the
parties to this proceeding.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, petitioner states as follows:
Michael Cetta Inc. d/b/a Sparks Steakhouse (“Sparks”)
has no parent company, and no publicly held corporation
owns 10% or more of the shares of Sparks.

iv
STATEMENT OF RELATED CASES
Michael Cetta, Inc. v. NLRB, No. 18-1165 (Consolidated
with 18-1171), United States Court of Appeals for the
District of Columbia Circuit, Judgment Entered May
20, 2019 (Appendix at 1a), petition for rehearing denied,
United States Court of Appeals for the District of Columbia
Circuit, Order Entered August 14, 2019 (Appendix at 87a).
Michael Cetta, Inc. and United Food and Commercial
Workers Local 342, Cases 02-CA-142626 and 02-CA144852, National Labor Relations Board, Decision and
Order of the Board (Amended), dated May 24, 2018
(Appendix at 10a).
Michael Cetta, Inc. and United Food and Commercial
Workers Local 342, Cases 02-CA-142626 and 02-CA144852, National Labor Relations Board, Decision of the
Administrative Law Judge, dated November 18, 2016
(Appendix at 17a).

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THIS PROCEEDING . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT  . . . . .  iii
STATEMENT OF RELATED CASES . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES AND REGULATIONS INVOLVED . . . . 2
Preliminary Statement . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 5
B. 	Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
REASONS FOR GRANTING THE petition . . . . 12
I.

T H E C OUR T S H OU L D G R A N T
REVIEW BECAUSE THE DECISION
BELOW DEPA RTS FROM EV ERY
PRIOR NLRA “DISCHARGE” HOLDING,
AND IMPROPERLY RELIEVES THE
GENERAL COUNSEL OF ITS BURDEN
TO PROVE A DISCHARGE  . . . . . . . . . . . . . . 12

II. T H E C OUR T S H OU L D G R A N T
REVIEW BECAUSE THE DECISION
CONFLICTS WITH MACKAY RADIO
AND ITS PROGENY . . . . . . . . . . . . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
A PPENDI X A — J UDGMEN T OF THE
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT,
	DATED MAY 20, 2019  . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — DECISION AND ORDER
OF THE NATIONAL LABOR RELATIONS
	BOARD, DATED may 24, 2018 . . . . . . . . . . . . . . . 10a
A PPEN DI X C — DECI SION OF T H E
ADMINISTRATIVE LAW JUDGE, DATED
November 18, 2016  . . . . . . . . . . . . . . . . . . . . . . .  17a
APPENDIX D — DENIAL OF PETITION
FOR REHEA RING IN THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLU M BI A CIRCUIT,
FILED ON AUGUST 14, 2019 . . . . . . . . . . . . . . . . . 87a
APPENDIX E — RELEVANT STATUTORY
	PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Aliotta v. Bair,
614 F.3d 556 (D.C. Cir. 2010)  . . . . . . . . . . . . . . . . . . . . 3
Douglas Autotech Corp.,
357 NLRB 1336 (2011) . . . . . . . . . . . . . . . . . . . . . . 3, 16
Elastic Stop Nut,
921 F.2d  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
General Indus. Employees Union, Local 42 v.
NLRB,
951 F.2d 1308 (D.C.Cir.1991)  . . . . . . . . . . . . . . . . . . .  17
Gibson Greetings, Inc. v. NLRB,
53 F.3d 385 (D.C. Cir. 1995) . . . . . . . . . . . . . . . . passim
Grosvenor Resort,
336 NLRB 613 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . 13
In re Michael Cetta, Inc.,
366 NLRB 97 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
J.M.A. Holdings, Inc.,
310 NLRB 1349 (1993)  . . . . . . . . . . . . . . . . . . . . . . . . 20
Kolka Tables & Fin.-Am. Saunas,
335 NLRB 844 (2001) . . . . . . . . . . . . . . . . . . . . . . 12, 13

ix
Cited Authorities
Page
Leiser Construction, LLC,
349 NLRB 413 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . 13
New England Health Care Emps. Union v.
NLRB,
448 F.3d 189 (2d Cir. 2006) . . . . . . . . . . . . . . . . . passim
NLRB v. Champ Corp.,
933 F.2d 688 (9th Cir. 1990) . . . . . . . . . . . . . . . 3, 12, 13
NLRB v. Fleetwood Trailer Co.,
389 U.S. 375, 88 S. Ct. 543, 19 L. Ed. 2d 614
(1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
NLRB v. International Van Lines,
409 U.S. 48, 93 S. Ct. 74, 34 L. Ed. 2d 201 (1972) . .  17
NLRB v. Mackay Radio & Telegraph Co.,
304 U.S. 333 (1938) . . . . . . . . . . . . . . . . . . .  5, 16, 17, 22
Pennypower Shopping News, Inc. v. NLRB,
726 F.2d 626 (10th Cir. 1984) . . . . . . . . . . . . . . . . 12, 13
Pride Care Ambulance,
356 NLRB 1023 (2011) . . . . . . . . . . . . . . . . . . . . . . . . 13
Supervalu, Inc.,
347 NLRB 404 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . 18

x
Cited Authorities
Page
Sure-Tan, Inc. v. NLRB,
467 U.S. 883 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Target Rock Corp. v. NLRB,
172 F.3d 921 (D.C. Cir. 1998) . . . . . . . . . . . . . . . . . . . 18
Target Rock Corp.,
324 NLRB 373 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 18
Tri-State Wholesale Bldg. Supplies, Inc.,
362 NLRB 730 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 13
Statutes and Other Authorities
5 U.S.C. § 706  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 158  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 160  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 160(e)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
29 U.S.C. § 160(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
29 C.F.R. § 102.45(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 C.F.R. § 102.48(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

xi
Cited Authorities
Page
NLRA § 8  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
NLRA § 8(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 10
NLRA § 8(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 10
NLRA § 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
NLRA § 10(e)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
NLRA § 10(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

1
OPINIONS BELOW
The unpublished per curiam decision of the United
States Court of Appeals for the District of Columbia
Circuit affirming the Decision and Order of the National
Labor Relations Board, that held Michael Cetta Inc. d/b/a
Sparks Steakhouse violated Sections 8(a)(1) and 8(a)(3) of
the National Labor Relations Act, is reproduced in the
Appendix at 1a-9a. The unpublished order of the United
States Court of Appeals for the District of Columbia
Circuit denying the petition for rehearing en banc is
reproduced in the Appendix at 87a-88a.
The decision and order of the National Labor Relations
Board, affirming the rulings, findings, and conclusions of
the Administrative Law Judge, is reported at 366 NLRB
No. 97, 2018 NLRB LEXIS 200 (N.L.R.B., May 24, 2018),
and reproduced in the Appendix at 10a-16a. The decision
and order of the Administrative Law Judge is reported
at 366 NLRB No. 97, 2016 NLRB LEXIS 825 (N.L.R.B.,
Nov. 18, 2016), and reproduced in the Appendix at 17a-86a.
JURISDICTION
The judgment of the Court of Appeals for the District
of Columbia Circuit was entered on May 20, 2019. (App.
1a.) The order of the Court of Appeals for the District of
Columbia Circuit denying the petition for rehearing en
banc was entered on August 14, 2019. (App. 87a.)
This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).

2
STATUTES INVOLVED
The text of the relevant statutes is set forth in the
Appendix at 89a – 96a.
STATUTES AND REGULATIONS INVOLVED
The statutes involved in this case are the National
Labor Relations Act §§ 8, 10, 29 U.S.C. §§ 158, 160,
reproduced in the Appendix at 89a – 90a and 91a-93a,
respectively; the Administrative Procedures Act, 5
U.S.C. § 706, reproduced in the Appendix at 94a-95a;
and regulations of the National Labor Relations Board,
29 C.F.R. §§ 102.48(c) and 102.45(b), reproduced in the
Appendix at 95a-96a, respectively.
Preliminary Statement
The National Labor Relations Act (“NLRA”) arguably
impacts, or has the potential to impact, more people in the
United States than any other federal law.
The Court of Appeals for the District of Columbia
Circuit has issued an unprecedented ruling that
introduces grave uncertainty into the NLRA, penalizes
an employer for its good-faith reliance on legal precedent
under the NLRA, eliminates an employer’s ability to rely
on representations made by unions (thereby effectively
negating the role of unions as the exclusive collectivebargaining representative of employees), and undermines
long-established precedent of this Court and the Circuit
Courts.

3
The ruling ushers in what may be the most important
NLRA “discharge” case since the Supreme Court implicitly
recognized “constructive discharge” in Sure-Tan, Inc. v.
NLRB, 467 U.S. 883 (1984). In contrast to Sure-Tan and
every other discharge case, the D.C. Circuit held the
National Labor Relations Board (the “NLRB” or “Board”)
may “infer” an employer discharged a striking employee
even when, as here, the record (a) is devoid of a single
instance in which any one of thirty-six striking employees
ever claimed discharge, (b) demonstrates neither the
striking employees nor their union ever filed a charge
with the Board claiming discharge (even though the union
filed multiple other charges), and (c) demonstrates also
the union – in fulfilling its role as the exclusive collectivebargaining representative of the striking employees –
repeatedly told the employer the striking employees were
“locked out,” a legal status the NLRB considers mutually
exclusive with being discharged. Douglas Autotech Corp.,
357 NLRB 1336, 1342-43 (2011).
This decision departs from an unbroken line of
precedent finding discharge – whether “actual” or
“constructive” – only when an aggrieved employee,
directly or through the union, has claimed discharge, and
when that claim survives an objective test predicated on
whether it was reasonable for the aggrieved employee to
believe she or he had been discharged. See, e.g., NLRB v.
Champ Corp., 933 F.2d 688, 692 (9th Cir. 1990), as amended
(May 20, 1991) (actual discharge) (the test “depends on the
reasonable inferences that the employee could draw from
the statements or conduct of the employer.”) (emphasis
added); Aliotta v. Bair, 614 F. 3d 556, 566 (D.C. Cir.
2010) (constructive discharge) (“The test for constructive
discharge is an objective one: whether a reasonable person

4
in the employee’s position would have felt compelled to
resign under the circumstances.”) (emphasis added).
Neither the D.C. Circuit’s decision nor the NLRB’s brief
on appeal identified a single case applying the objective
test in the absence of at least one aggrieved employee who
claimed to have been discharged. None exists.
Yet the D.C. Circuit’s decision diverges from, and
fundamentally changes, that standard, eliminating the
need for an allegedly aggrieved employee who claims
discharge, and allowing the Board to apply the objective
test retrospectively to a hypothetical reasonable employee.
That change not only breaks with long-established
precedent on factual predicate required to find a
discharge in violation of the NLRA, but also jettisons the
long-accepted standard imposing the burden of proving
discharge on the General Counsel.
Furthermore, the decision does so even though the
union took the position (and repeatedly told the employer)
the striking employees were “locked out,” meaning they
were not discharged. This aspect of the D.C. Circuit
decision in effect negates the role of the union as the
striking employees’ exclusive-bargaining representative,
and creates uncertainty in the collective-bargaining
process.
This issue, therefore, is of exceptional importance to
the entire construct and purpose of the NLRA.
Moreover, the decision held the employer’s qualified
rejection “at this time” of the union’s unconditional offer of
return to work created “ambiguity” about the employment
status of the striking employees, and thereby exposed

5
Sparks to a claim of discharge. The decision thus creates
uncertainty as to how an employer is to exercise its right to
hire permanent replacements for striking employees (see
NLRB v. Mackay Radio & Telegraph Co., 304 U.S. 333,
346 (1938)), and its right to withhold the fact of such hires
(see New England Health Care Emps. Union v. NLRB,
448 F.3d 189, 195 (2d Cir. 2006) (“Avery Heights”), without
creating such ambiguity. This issue, too, is of exceptional
importance to the entire construct and purpose of the
NLRA.
Separately, the decision conflicts with the precedent
recognized in Gibson Greetings, Inc. v. NLRB, 53 F.3d
385, 390-91 (D.C. Cir. 1995). In that case, the court held
the “mutual understanding” required to demonstrate
replacement workers were hired on a permanent (rather
than temporary) basis is satisfied by the unilateral
declaration of permanence by the employer, and the
continuation or commencement of work thereafter by
the replacement worker. Although that fact pattern is
replicated here, the decision below ignores it, and insists
the mutual understanding is not satisfied unless the
replacement worker countersigns an offer letter before
the striking employees make an unconditional offer to
return to work.
STATEMENT OF THE CASE
A. Factual Background
Petitioner, Michael Cetta, Inc. d/b/a Sparks Steakhouse
(“Sparks”) is multigenerational, family-owned restaurant
located at 210 East 46th Street in New York, New York.
Sparks employs Maitre D’s, waiters, bartenders, chefs,
food preparers and dishwashers. (App. 18a-19a.)

6
United Food and Commercial Workers Local 342
(“Local 342” or the “Union”) “was certified as the exclusive
collective bargaining representative of a unit of waiters
and bartenders at Sparks on July 11, 2013,” and thereafter
Sparks and the Union held multiple negotiating sessions.
(App. 20a.)
This case arose from an economic strike against
Sparks that began on Friday, December 10, 2014, during
the busy holiday season dinner shift. (App. 2a.)1
When the striking employees did not immediately
return, Sparks was unsure of their intentions. Accordingly,
Sparks hired permanent replacements for the striking
employees, who began working as early as December 11,
2014. (R 7A-HH at A437-470; A103-116). 2 Sparks offered
“permanent employment” to each of the permanent
replacements, as evidenced by offer letters (“Offer
Letters”) issued to each of the permanent replacements
between December 11 and December 19, 2014. (App. 7a.,
39a-41a.)

1. A prior economic strike on December 5, 2014 ended after
about two hours, when Sparks accepted without hesitation the
unconditional offer of return to work of the striking employees.
(App. 20a.)
2. Cites “R__” are to Respondents’ Exhibits introduced
into evidence at the ALJ Hearing. Cites “GC__” are to General
Counsel’s Exhibits introduced into evidence at the ALJ Hearing.
Cites “A___” are to the Joint Appendix filed in the United States
Court of Appeals for the District of Columbia Circuit.

7
On Friday night, December 19, 2014, the Union’s
Secretary-Treasurer sent an email to Sparks’ counsel in
which she made an unconditional offer of return to work
on behalf of the striking employees (the “Unconditional
Offer”). (GC-9 at A232-233; App. 6a-7a.) After discussing
the email with Sparks, Sparks’ counsel responded on
December 22, 2014 (the “Sparks Response”), stating
Sparks “must reject the union’s offer to return the striking
employees to work at this time.” (GC-9 at A231) (emphasis
added). Given the picket line misconduct that already had
occurred, and in reliance on Avery Heights, the Sparks
Response did not mention Sparks already had hired
permanent replacements. Neither Sparks nor its counsel
ever stated – or even implied – the striking employees
were discharged, including in the Sparks Response.
The Union replied to the Response on December
22, 2014 (the “Strikers Reply”). Notably, in the Strikers
Reply, the Union volunteered, “our position is that Sparks
employees are locked out.” (GC-9 at A231; App. 5a.)
In the Charge filed with the NLRB on January 22,
2015 (the “Lock Out Charge”), the Union reiterated its
position the striking employees were locked out – not
discharged – since “on or about December 19, 2014,” and
alleged Sparks continued to “lock out for discriminatory
purposes all of those employees” who participated in the
strike. (A32.) Nothing in the Lock Out Charge alleges
Sparks ever discharged any, let alone all, of the striking
employees. Ibid. 3
3. The Union filed three other Charges, one of which became
the Solicitation Charge. (See A21, A27, A29, A33). As with the
Lock Out Charge, none of them alleged Sparks discharged any
of the striking employees.

8
Sparks and the Union had at least three subsequent
bargaining sessions: January 8, January 20, and February
25, 2015. During at least two of them, Sparks told the
Union the striking employees remained active employees,
and discussed returning them to work. (A198-A200 [Tr.
658:4-7; 659:17-20; 660:6-14].)
B. Procedural History
The Consolidated Complaint, issued a full four months
after the Union filed the last of its Charges against Sparks,
is based only on the Solicitation Charge and the Lock Out
Charge. (A35.) Nonetheless, in paragraph 7.d. it asserts a
separate allegation appearing in neither of those (or any
of the other) Charges: Sparks discharged the striking
employees on December 22, 2014.
On about December 22, 2014, Respondent by
its counsel, by email to the Union, discharged
the 36 striking employees ….
(A38.)
Some nine months after the Union filed the Lock Out
Charge, the Board amended the Complaint. (A47.) The
amendment did not add any new factual allegations, did
not assert new violations, and did not advance any new
theories of liability. Rather, the only change was to expand
the remedy.
The following paragraph is inserted in the Remedy
section, after the first paragraph:

9
As part of the remedy for the unfair labor
practices alleged in paragraph 7 of the Complaint,
the General Counsel seeks an order requiring
that Respondent offer reinstatement to all 36
discharged strikers, and that Respondent make
whole all 36 discharged strikers from the date
of their discharge – December 22, 2014 – with
interest, despite the fact that Respondent had
hired permanent replacement workers before
the date of discharge.
Ibid (emphasis added).
Notwithstanding the limitation of the hearing to the
two issues expressly set forth in the Amended Complaint,
the GC raised a new issue in its post-hearing brief:
whether Sparks even hired permanent replacements to
replace the striking employees prior to the Unconditional
Offer. In support of this new issue, the GC asserted Sparks
had not introduced documentary evidence, specifically
Weekly or Daily Tip sheets, for the period December 15
through December 21, 2014, and asked the ALJ to draw
an adverse inference from the fact Sparks had not done so.
The ALJ issued her decision on November 18, 2016. In
it, the ALJ considered the new issue on the merits – even
though it never was litigated during the hearing – and
held Sparks had not met its burden of proof to show it
hired permanent replacements prior the making of the
Unconditional Offer. (App. 41a.)
Additionally, the ALJ held Sparks, by and through the
Sparks Response, discharged all striking employees on
December 22, 2014. (App. 61a-70a). Although the Amended

10
Complaint alleges Sparks effectuated the discharge by
only the Sparks Response (App. 61aa-62a; A38), the ALJ
relied also on events that occurred weeks and months after
the Response to establish a December 22, 2014 discharge.
(App. 64a-65a.)
Having made these holdings, the ALJ found Sparks
violated NLRA §§ 8(a)(1) and (3) by: 1) failing and
refusing to reinstate the striking employees despite an
unconditional offer to return to work; 2) denying the
striking employees the right to be placed on a preferential
hiring list; and 3) discharging them. The ALJ ordered
a make-whole remedy of immediate reinstatement and
backpay from the date of the alleged discharge, December
22, 2014. (App. 77a-82a.)
Sparks filed Exceptions to the ALJ’s Decision. Sparks
also filed a Motion to Reopen the Record for the limited
purpose of including in the Record certain documentary
evidence Sparks produced to the GC prior to the hearing
(A99-116) (notwithstanding the erroneous statements by
the ALJ (App. 45a)); specifically, the Weekly and Daily Tip
sheets for the period December 15 through December 21,
2014 that, as the ALJ anticipated, proved Sparks hired
permanent replacements who started working before the
Unconditional Offer.
On May 24, 2018, the Board issued its Decision and
Order. (App. 10a). It denied Spark’s request for oral
argument (n.2), denied Sparks’ Motion to Reopen the
Record (n.3), and stated summarily it “has decided to
affirm the [ALJ’s] rulings, findings, and conclusions ….”
Ibid (footnotes omitted).

11
Sparks appealed the Board’s Decision and Order to
the United States Court of Appeals for the District of
Columbia Circuit. That court had jurisdiction pursuant
to NLRA §§ 10(e) and (f), 29 U.S.C. §§ 160(e) and (f).
On appeal, Sparks challenged the Board’s Decision
and Order. A panel of the D.C. Circuit affirmed the
Board’s holdings that Sparks discharged the striking
employees and had not demonstrated it hired permanent
replacements. (App. 1a.)
In affirming the discharge, the court held “the
Board’s general counsel was under no obligation to call
any employees to testify to the subjective belief that they
had been discharged ….” (App. 5a.) Furthermore, and
notwithstanding the finding made by the ALJ regarding
the role of the Union as the “exclusive collective bargaining
representative” of the striking employees (App. 20a),
the court held “statements by union officials suggesting
they believed the workers were ‘locked out’ rather than
discharged offer no basis to disturb the Board’s finding.
… [C]haracterizations by the union’s officers are not
dispositive of what the employees might have concluded.”
Ibid.
In affirming the Board’s holding Sparks did not
demonstrate it hired permanent replacements prior to
the time the Union made the Unconditional Offer, the
court identified “the crucial evidentiary issue in this case:
when the replacements understood their arrangement
with Sparks to be permanent.” (App. 8a.) Although the
court acknowledged all the Offer Letters were delivered
to the replacement workers prior to the time the Union
made the Unconditional Offer (App. 7a), and although the

12
Offer Letters specified permanent employment (App.
39a-41a), the court nonetheless held the replacement
workers would not have understood the offer to be for
permanent employment prior to the time the Union made
the Unconditional Offer. (App. 7a-8a.)
REASONS FOR GRANTING THE petition
I.

T H E COU RT SHOU L D GR A N T REV I EW
BECAUSE THE DECISION BELOW DEPARTS
FROM EVERY PRIOR NLRA “DISCHARGE”
HOLDING, AND IMPROPERLY RELIEVES
THE GENERAL COUNSEL OF ITS BURDEN TO
PROVE A DISCHARGE

The D.C. Circuit’s holding – that the Board may infer
discharge even in the absence of at least one striking
employee who claimed s/he was discharged – departs
from every prior discharge holding under the NLRA.
That decision must not stand.4
Historically, a claim of discharge by at least one
employee has been a sine qua non of any case in which
the Court (or the NLRB) has found a discharge. Indeed,
that essential factual predicate is found in every case
cited by the D.C. Circuit in its decision. Kolka Tables &
Fin.-Am. Saunas, 335 NLRB 844 (2001); Elastic Stop
Nut, supra; NLRB v. Champ Corp., 933 F.2d 688 (9th
Cir. 1990); Pennypower Shopping News, Inc. v. NLRB,
726 F.2d 626 (10th Cir. 1984). It is found also in each of
4. The decision has the unintended collateral effect of
relieving the General Counsel of its burden of proving a discharge,
in that it no longer would have to prove someone actually was
aggrieved by the words or conduct of an employer.

13
the cases relied upon below by the ALJ and (by adoption)
the Board. See Pride Care Ambulance, 356 NLRB 1023
(2011); Leiser Construction, LLC, 349 NLRB 413 (2007);
Tri-State Wholesale Bldg. Supplies, Inc., 362 NLRB 730
(2015); and Grosvenor Resort, 336 NLRB 613 (2001).
In all prior “discharge” cases involving something
other than a formal discharge, the employer made one or
more statements that caused an actual employee to have
a subjective belief she or he had been fired. Kolka Tables,
335 NLRB at 847 (telling employee “go back to work or
go home”; “you will lose your job”); Elastic Stop Nut, 921
F.2d at 1283 (letter stating “employment status ‘changed
immediately’”); Champ Corp., 933 F.2d at 691-92 (telling
employee he “didn’t work here anymore”; telling another,
“you’re fired too”); Pennypower Shopping News, 726 F.2d
at 628 (“final checks will be mailed”; remove personal
items from desk).
The employee’s subjective belief, however, does not
determine whether a discharge occurred. Rather, courts
test the employee’s subjective belief against an objective
test: was the allegedly-aggrieved employee’s belief
reasonable. See Elastic Stop Nut, 921 F.2d at 1282.
The D.C. Circuit’s decision abandons this historical
approach, eliminating the need for the existence of at least
one employee who believed she or he had been discharged.
“Contrary to Sparks’s argument, the Board’s general
counsel was under no obligation to call any employees
to testify to their subjective belief that they had been
discharged ....” (App. 5a.) Instead, the court applied the
“reasonableness” test to a non-existent employee: would
a hypothetical reasonable employee have understood the

14
employer’s words or conduct to mean she or he had been
discharged. This Court should grant the Petition to review
and, Petitioner submits, repudiate this drastic sea change.5
The elimination of the need for an aggrieved employee
claiming discharge also permitted the court to disregard
the statements the Union repeatedly made to Sparks that
the employees were “locked out.”
[S]tatements by union officials suggesting
they believed the workers were “locked out”
rather than discharged offer no basis to disturb
5. The decision states “Sparks challenge[d] the Board’s
factual finding the striking workers would reasonably have
concluded that their employment status was ambiguous.” (App. 4a.)
That is incorrect. Sparks challenged the application of the legal
standard – i.e., the objective reasonableness test – in the absence
of at least one striking worker claiming to have been discharged.
Various policy considerations support Sparks’ challenge. If
an administrative agency is permitted to “infer” discharge in the
absence of an actual employee claiming to be so aggrieved, on what
basis may the agency seek a remedy of reinstatement with backpay
(and not simply a civil penalty)? (If an agency is so permitted,
then why is constructive discharge – similarly predicated on the
“statements or conduct of the employer” – limited to situations in
which there is an actual employee claiming to be aggrieved?) Given
the borrowing of labor law legal principles in Title VII law, would
not the EEOC be permitted to seek such a monetary-damages
remedy (rather than a civil penalty) without the need to have an
employee claiming to be aggrieved? Does the judicial review of
such agency determinations involving only a hypothetical employee
place Article III courts at risk of exercising jurisdiction over a
matter that does not present an actual case or controversy? These
policy considerations compel repudiating the court’s departure
from the need of having an employee who believes she or he had
been discharged.

15
the Board’s finding. The test “depends on
the reasonable inferences that the employee
could draw,” and characterizations by the
union’s officers are not dispositive of what the
employees might have concluded.
(App. 5a) (emphasis in original).
This portion of the opinion in effect ignores the
role of the Union as the employees’ exclusive collectivebargaining representative (App. 20a), and in effect
negates the Union’s long-recognized statutory duty of fair
representation of all employees. If, on behalf of employees,
a union has the right and/or the duty to file charges with
the NLRB, how is possible the union does not speak for
those same employees when it states they are “locked
out,” a legal status that precludes the possibility of the
employees having been discharged?
[I]t is well settled that a lockout does not
sever the employer-employee relationship. ...
Indeed, a lockout pre-supposes the existence
of an employment relationship between the
employer and the employees it has locked out.
Persons who are not employed by an employer
may no more be locked out by the employer
than strike against the employer. Thus, persons
who are locked out by an employer are
viewed as having “ permanent employee
status.” In short, the declaration of a lockout
makes no sense with respect to persons who are
not employees of the employer. By declaring
the employees locked out, the Respondent was
necessarily, as a matter of Board law, declaring
them to be its employees ....

16
Douglas Autotech, 357 NLRB at 1342-43 (footnotes
omitted) (emphases added). If the subjective view of the
employer binds the employer, certainly the subjective
view of the union certified as the “exclusive collectivebargaining representative” of the striking employees
likewise must bind the striking employees.
In making those statements to Sparks, the Union
officials represented no employees were claiming
discharge, and, in the absence of contrary evidence (and
none exists), the Union’s characterization is dispositive
of the question whether any striking Sparks employees
claimed discharge. If, as historically has been the
standard, the objective reasonableness test is applied only
when there is at least one aggrieved employee actually
claiming discharge, then the Union’s characterization is
indirectly determinative also of the question whether the
striking Sparks employees were discharged. Accordingly,
they were locked out and, therefore, Sparks could not be
found to have discharged them.
Finally, the decision creates grave uncertainty for
employers who rely on judicial precedent under the NLRA;
specifically, by exercising their right to hire permanent
replacements for economic strikers (see Mackay Radio,
304 U.S. at 346), and their right not to disclose such hiring
to the striking employees (see Avery Heights, 448 at 195).
Here, in reliance on Avery Heights, Sparks withheld
from the Union (and therefore the striking employees) the
fact it hired permanent replacements. Indeed, the Board
concedes “[t]here is no claim in this case that Sparks
acted with unlawful intent in hiring the [permanent]
replacements.” See NLRB Brief on Appeal at 47 n.27.

17
Yet, in exercising that right lawfully, Sparks somehow
created ambiguity about the employment status of the
striking employees, and thereby exposed itself to an
unfair labor practice charge. (App. 5a.) This issue is of
exceptional importance, in that employers who follow
Avery Heights may nonetheless violate the NLRA.
On this issue, the Court should grant the Petition.
II. T H E COU RT SHOU L D GR A N T REV I EW
BECAUSE THE DECISION CONFLICTS WITH
MACKAY RADIO AND ITS PROGENY
An economic striker who offers unconditionally
to return to work is entitled to immediate
rei nst at ement unless his employer can
show a “legitimate and substantial business
justification[ ]” for refusing to reinstate him.
NLRB v. Fleetwood Trailer Co., 389 U.S. 375,
378, 88 S.Ct. 543, 546, 19 L.Ed.2d 614 (1967).
That he was replaced by a permanent employee
during the strike is such a justification, id.
at 379, 88 S.Ct. at 546; an economic striker
who is permanently replaced thus loses his
right to immediate reinstatement. NLRB v.
International Van Lines, 409 U.S. 48, 50, 93
S.Ct. 74, 76, 34 L.Ed.2d 201 (1972); General
Indus. Employees Union, Local 42 v. NLRB,
951 F.2d 1308, 1311 (D.C.Cir.1991).
Gibson Greetings, Inc. v. NLRB, 53 F.3d 385, 389 (D.C.
Cir. 1995).

18
The D.C. Circuit’s decision correctly summarizes
the controlling law regarding the limits on an economic
striker’s right to return to work.
The National Labor Relations Act requires an
employer to “reinstate strikers” following their
voluntary and unconditional offer to return.
NLRB v. Fleetwood Trailer Co., 389 U.S. 375,
378 (1967). An employer, however, may refuse
reinstatement if “it can demonstrate that it
acted to advance a legitimate and substantial
business justification.” New England Health
Care Employees Union, 448 F.3d at 191
(internal quotation marks omitted). …
… Sparks claimed that it lawfully hired
permanent replacements. See Gibson Greetings,
Inc. v. NLRB, 53 F.3d 385, 389 (D.C. Cir. 1995)
(“That [the striker] was replaced by a permanent
employee during the strike is [a legitimate and
substantial business] justification . . . .”). Under
unchallenged Board precedent, to succeed on
that claim, Sparks had to prove “there was a
mutual understanding between the [employer]
and the replacements that the nature of their
employment was permanent.” Target Rock
Corp., 324 NLRB 373, 373 (1997), enforced sub
nom. Target Rock Corp. v. NLRB, 172 F.3d
921 (D.C. Cir. 1998) (unpublished per curiam
decision). Crucially, Sparks had to demonstrate
that the understanding was reached “before
[the strikers] made unconditional offers to
return to work.” Supervalu, Inc., 347 NLRB
404, 405 (2006).

19
(App. 6a).6
Under long-standing precedent, Sparks demonstrated
the required understanding was reached before the
striking employees made their Unconditional Offer.
Sparks delivered written letters offering permanent
employment to the replacement workers prior to the time
the Union made its Unconditional Offer. (App. 7a; App.
39a-41a.)
6. Sparks argued it was relieved from this burden because
“the general counsel [of the NLRB] conceded that Sparks
timely hired replacements and therefore that the Board was not
entitled to make a contrary finding.” (App. 6a.) The D.C. Circuit
did not reject the theory posited by Sparks; rather, it found,
“[a]though the general counsel’s attorney agreed that Sparks
had hired replacements at some point, she never conceded when
that happened. See Hearing Tr. 17, Joint Appendix 122 (general
counsel’s opening statement: ‘You will also learn that at the time
the employees offered to return to work on December 19th, Sparks
had not replaced all the strikers and that positions were available
for the former striker[s] to return to work.’).” (App. 6a-7a.)
The court misinterpreted the sentence, as that sentence
clearly states “Sparks had not replaced all the strikers” “at the
time the employees offered to return to work on December 19th,”
thereby conceding Sparks had hired at least some permanent
replacements prior to that time. Consequently, the reinstatement
remedy is not available to all the strikers.
Furthermore, the decision ignores the NLRB’s unqualified
concessions in the Complaint and in the Amendment to the
Complaint. In the former, the NLRB alleges as a factual matter
Sparks denied the strikers their right to be placed onto a
preferential hiring list; as a matter of law, that right that comes
into being only if permanent replacements have been hired. In the
latter, the NLRB states seeks back-pay damages for discharge
“despite the fact [Sparks] had hired permanent replacements
before the date of discharge.” (Emphasis added.)

20
“[A]n employer’s unilateral statements can establish
the necessary mutual understanding” between the
employer and the replacements. Gibson Greetings, 53
F.3d at 390–91. In Gibson Greetings, some months after
hiring replacements, the employer issued a memorandum
unilaterally declaring the replacements hired were
permanent. The memorandum was issued prior to the
time the strikers made an unconditional offer of return
to work. Ibid. It never was countersigned by any of the
replacements. Nonetheless, the employer’s unilateral
declaration, apparently coupled with the replacements
continuing to work after it was issued, satisfied the
requirement of mutual understanding. Ibid.
The facts here are even more compelling than in
Gibson Greetings. Here, the evidence demonstrates
Sparks delivered an Offer Letter to each replacement
worker prior to the Unconditional Offer. (A39a-41a; R
7A-HH at A437-470; A103-116.)7
Here, each Offer Letter made plain Sparks at
inception considered the replacement workers to be
permanent (and not merely temporary) hires. Ibid. The
replacement workers then continued or commenced their
work, and – as in Gibson Greetings – by doing so, and
without anything more, thereby manifested their assent to
the terms in the Offer Letters. Gibson Greetings, 53 F.3d
at 390–91 (and citing J.M.A. Holdings, Inc., 310 NLRB
1349 (1993) (employer’s unilateral notice sufficient)).

7. As the ALJ found, “[t]wo of the letters were dated
December 11, 2014, 26 were dated December 15, and six were
dated December 19.” (App. 41a; see R 7A-HH at A437-470.)

21
As the D.C. Circuit acknowledged, the tip records
from the week of December 15-21, 2014 (A105, A109-111,
A113-115, & A116), “‘would have established the precise
dates that the newly hired employees began working.’”
(App. 8a, quoting In re Michael Cetta, Inc., 366 NLRB 97
(2015), slip op. at 10) (emphasis in original).) In the context
of Gibson Greetings, the Offer Letter (in which Sparks
unambiguously declared the hires to be permanent),
coupled with the fact that, after receiving them, the
replacement workers continued or commenced work,
demonstrates the required mutual understanding.
The ALJ, to her credit, apparently understood this
point, stating “[s]uch records, by establishing any shifts
worked by alleged replacement employees, would tend to
substantiate [Sparks’] claim that the striking employees
were permanently replaced prior to their [the striking
employees] unconditional offer to return on December
19 ….” (App. 47a.) (Emphasis added.)8
The decision below, however, ignored the Gibson
Greetings “assent-through-work” precedent, and instead
looked only to the alleged lack of certainty as to the date
the replacement workers countersigned and returned
the Offer Letters. (App. 7a.) In doing so, the decision is
in direct conflict with Gibson Greetings.
Even if the decision were not in conf lict w ith
established precedent, the issue is nonetheless of such
8. The D.C. Circuit, therefore, erred in concluding the
exclusion of the tip records, and the ALJ’s adverse inference
drawn from the erroneous belief Sparks never produced them to
the Board, were harmless errors. (App. 8a.)

22
importance it merits review and consideration by this
Court. Employers such as Petitioner, against whom
there is no allegation of anti-union animus, and who in
the midst of an economic strike deliver written offers of
permanent employment to replacement workers prior
to receiving from striking employees an unconditional
offer of return to work, certainly have established the
mutual understanding required by Mackay Radio and
its progeny. Here, the Offer Letters alone demonstrate
the replacement workers “understood their positions
to be permanent” (App. 8a) before the Union made the
Unconditional Offer; moreover, the improperly excluded
tip sheets (App. 7a-8a) demonstrate the replacement
workers not only understood the nature of their positions,
but also accepted those positions when they commenced
(or continued) work after receiving the Offer Letters.
On this issue, the Court should grant the Petition.
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for Writ of Certiorari.
Respectfully submitted,
Jon Schuyler Brooks
Counsel of Record
Marc B. Zimmerman
Freeborn & Peters LLP
230 Park Avenue, Suite 630
New York, NY 10169
(212) 218-8760
jbrooks@freeborn.com
Counsel for Petitioner

APPENDIX

1a
A
APPENDIX AAppendix
— JUDGMENT
OF THE
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT,
DATED MAY 20, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-1165
MICHAEL CETTA, INC.,
D/B/A SPARKS RESTAURANT,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.
Consolidated with 18-1171
May 20, 2019, Filed
On Petition for Review and Cross-Application
for Enforcement of an Order of
the National Labor Relations Board.
Before: ROGERS, TATEL, and PILLARD, Circuit
Judges.

2a
Appendix A
JUDGMENT
This case was considered on a petition for review
and cross-application for enforcement of a Decision and
Order of the National Labor Relations Board (“NLRB” or
“Board”) and was briefed and argued by counsel. Michael
Cetta, Inc. d/b/a Sparks Restaurant (“Sparks”) petitions
for review of the Board’s Decision and Order finding
Sparks committed unfair labor practices in violation of
sections 8(a)(1) and (3) of the National Labor Relations
Act, 29 U.S.C. § 158(a)(1), (3). The Court has accorded the
issues full consideration and has determined that they do
not warrant a published opinion. See D.C. Cir. R. 36(d).
For the reasons that follow, it is
ORDERED and ADJUDGED that the petition for
review is denied, and the Board’s cross-application for
enforcement is granted.
In December 2014, Sparks and the union representing
its waiters and bartenders had been unsuccessfully
attempting to negotiate a contract for a year and a half.
Following a brief, two-hour strike on December 5, a
Sparks manager tried to convince an employee to leave
the union. That effort failed, and no contract agreement
resulted.
On December 10, thirty-six of Sparks’s waiters and
bartenders went on strike to protest the lack of progress
in negotiations. After nine days, the strikers made a
voluntary and unconditional offer to return to work.
Sparks’s management refused the offer, accusing the

3a
Appendix A
strikers of having committed picket-line violence and
intimidation. At a January negotiation session, Sparks’s
representatives again refused to allow the strikers to
return to work, repeating their insinuation that the
striking employees posed a threat. When union officials
asked Sparks to identify a particular violent incident, the
restaurant refused.
It later became clear that Sparks had hired workers
to replace the strikers. And although several of those
replacement employees left in early 2015, Sparks waited
until August before it invited a single striking worker to
return.
As relevant to this petition, the Board found that
Sparks committed three unfair labor practices in violation
of the National Labor Relations Act: (1) discharging
striking workers; (2) failing to reinstate striking workers
following a voluntary and unconditional offer to return to
work; and (3) soliciting workers to withdraw their support
from the union. Sparks’s petition challenges the Board’s
findings with respect to discharge and failure to reinstate
the strikers.
We begin with discharge. Sparks does not challenge
the governing legal framework. For purposes of the
Act, an employee is considered discharged “if the words
or conduct of the employer would reasonably lead an
employee to believe that he had been fired.” Elastic Stop
Nut Division of Harvard Industries, Inc. v. NLRB, 921
F.2d 1275, 1282, 287 U.S. App. D.C. 287 (D.C. Cir. 1990).
The test is an objective one: it “depends on the reasonable

4a
Appendix A
inferences that the employee could draw from the
statements or conduct of the employer.” NLRB v. Champ
Corp., 933 F.2d 688, 692 (9th Cir. 1990), as amended (May
20, 1991) (emphasis omitted) (internal quotation marks
omitted). Board precedent—uncontested by Sparks—
supplements this rule by providing that “the employer
will be held responsible when its statements or conduct
create an uncertain situation for the affected employees”
leading to “a climate of ambiguity and confusion” that
would “reasonably cause[] strikers to believe . . . that
their employment status was questionable because of their
strike activity.” In re Kolkka, 335 NLRB 844, 846 (2001)
(internal quotation marks omitted).
Sparks challenges the Board’s factual finding that
the striking workers would reasonably have concluded
that their employment status was ambiguous. But “we
may not disturb the Board’s findings of fact when those
findings are supported by substantial evidence based upon
the record taken as a whole.” Elastic Stop Nut, 921 F.2d
at 1279. “Indeed, the Board is to be reversed only when
the record is so compelling that no reasonable factfinder
could fail to find to the contrary.” Bally’s Park Place, Inc.
v. NLRB, 646 F.3d 929, 935, 396 U.S. App. D.C. 205 (D.C.
Cir. 2011) (internal quotation marks omitted).
Here, ample evidence supported the Board’s discharge
finding, including Sparks’s repeated rejections of the
employees’ offer to return, its “shifting explanations” for
those rejections, and its ban on the employees “returning
to the restaurant for any purpose.” In re Michael Cetta,
Inc., 366 NLRB No. 97, 2018 NLRB LEXIS 200 at *73

5a
Appendix A
(May 24, 2018). Contrary to Sparks’s argument, the
Board’s general counsel was under no obligation to call any
employees to testify to their subjective belief that they had
been discharged; as Sparks concedes, the test is objective.
See Champ Corp., 933 F.2d at 692. Similarly, statements
by union officials suggesting they believed the workers
were “locked out” rather than discharged offer no basis
to disturb the Board’s finding. The test “depends on the
reasonable inferences that the employee could draw,” and
characterizations by the union’s officers are not dispositive
of what the employees might have concluded. Pennypower
Shopping News, Inc. v. NLRB, 726 F.2d 626, 629 (10th
Cir. 1984). Nor did the Board unfairly punish Sparks for
exercising the right to decline to disclose the existence
of replacement workers. Assuming such a right exists,
the Board is still entitled to consider how an employer
exercises that right as evidence of a different unfair labor
practice. See New England Health Care Employees Union
v. NLRB, 448 F.3d 189, 195 (2d Cir. 2006) (concluding that
an employer’s concealment of a replacement campaign
might be evidence of “an independent unlawful purpose,”
such as “an illicit motive to break a union”).
With respect to the failure-to-reinstate charge,
Sparks again does not contest the controlling law. The
National Labor Relations Act requires an employer
to “reinstate strikers” following their voluntary and
unconditional offer to return. NLRB v. Fleetwood Trailer
Co., 389 U.S. 375, 378, 88 S. Ct. 543, 19 L. Ed. 2d 614 (1967).
An employer, however, may refuse reinstatement if “it
can demonstrate that it acted to advance a legitimate and
substantial business justification.” New England Health

6a
Appendix A
Care Employees Union, 448 F.3d at 191 (internal quotation
marks omitted). “The burden of proving justification is on
the employer.” Fleetwood Trailer, 389 U.S. at 378. Sparks
offered two independent justifications to the Board.
First, Sparks claimed that it lawfully hired permanent
replacements. See Gibson Greetings, Inc. v. NLRB, 53
F.3d 385, 389, 311 U.S. App. D.C. 314 (D.C. Cir. 1995)
(“That [the striker] was replaced by a permanent employee
during the strike is [a legitimate and substantial business]
justification . . . .”). Under unchallenged Board precedent,
to succeed on that claim, Sparks had to prove “there was
a mutual understanding between the [employer] and the
replacements that the nature of their employment was
permanent.” Target Rock Corp., 324 NLRB 373, 373
(1997), enforced sub nom. Target Rock Corp. v. NLRB,
172 F.3d 921, 335 U.S. App. D.C. 320 (D.C. Cir. 1998)
(unpublished per curiam decision). Crucially, Sparks
had to demonstrate that the understanding was reached
“before [the strikers] made unconditional offers to return
to work.” Supervalu, Inc., 347 NLRB 404, 405 (2006).
Sparks argues that the general counsel conceded
that Sparks timely hired replacements and therefore
that the Board was not entitled to make a contrary
finding. This argument misses the mark. Although the
general counsel’s attorney agreed that Sparks had hired
replacements at some point, she never conceded when
that happened. See Hearing Tr. 17, Joint Appendix 122
(general counsel’s opening statement: “You will also
learn that at the time the employees offered to return
to work on December 19th, Sparks had not replaced all

7a
Appendix A
the strikers and that positions were available for the
former striker[s] to return to work.”). Thus, Sparks still
had to present evidence establishing that it reached the
necessary mutual understanding with the replacements
before the December 19 offer to return to work.
The Board found that Sparks failed to meet that burden,
and substantial evidence supports that finding. Although
Sparks introduced offer letters for the replacements that
it had issued on or before December 19, those letters did
not indicate when the replacements signed them and the
testimony of Sparks’s human resources officer fell short
of filling the gap. Sparks cites Gibson Greetings for the
proposition that an employer’s unilateral statements can
establish the necessary mutual understanding. And so
they may, depending on the context. 53 F.3d at 390-91. But
this case is very different from Gibson Greetings, where
the replacements had been working for several months
and had received confirmation of their jobs’ permanency
more than a month before the strikers offered to return.
Id. at 387-91. The rapidly evolving events and compressed
timeline here make it more critical to establish exactly
when the replacements reached a mutual understanding
with Sparks.
Sparks now contends that certain tip records from
the week of December 15-21 would have helped clarify
this timing issue. But Sparks failed to introduce those
records into evidence at the hearing. Based in part
on that omission, the ALJ drew an adverse inference
against Sparks, assuming that the records would not
have supported its position. To be sure, the ALJ also

8a
Appendix A
thought (erroneously, as it turns out) that Sparks had
failed to even produce those records during discovery.
Even if that mistaken impression contributed to the
ALJ’s decision to draw the adverse inference, however,
any error was harmless because admitting the tip records
would not have affected the outcome. See Ozark Auto.
Distribs. v. NLRB, 779 F.3d 576, 582, 414 U.S. App. D.C.
243 (D.C. Cir. 2015) (“In administrative law, as in federal
civil and criminal litigation, there is a harmless error
rule: [section] 706 of the Administrative Procedure Act
instructs reviewing courts to take due account of the rule
of prejudicial error.” (alteration, citation, and internal
quotation marks omitted)). At most, the missing records
would have shown that some of the replacements started
work before December 19. Such evidence would not have
resolved the crucial evidentiary issue in this case: when the
replacements understood their arrangement with Sparks
to be permanent. See In re Michael Cetta, Inc., 366 NLRB
No. 97, 2018 NLRB LEXIS 200 at *44 (records “would
have established the precise dates that the newly hired
employees began working,” not when they understood
their positions to be permanent (emphasis added)); see
also Oral Arg. Rec. 13:18-14:54 (offering no explanation
for how Sparks was prejudiced by the inference). Nor was
the Board obligated to reopen the record for Sparks to
introduce the tip sheets. Sparks’s only excuse for failing
to introduce them the first time around was the general
counsel’s supposed concession. Since that concession never
happened, there was no reason to reopen the record.
Sparks argues that it had a second legitimate business
reason for not reinstating its employees: a decline in

9a
Appendix A
business after December 2014. But the Board reasonably
found based on five years’ worth of sales records that
Sparks’s business suffered a downturn every year after
the holiday rush. Despite this cyclical pattern, Sparks had
never before reduced its staffing levels during off-peak
periods. Thus, the Board found, the downturn in business
failed to explain Sparks’s failure to rehire the strikers.
Sparks has given us no basis to upset that finding. See
Bally’s Park Place, 646 F.3d at 935 (Board accorded “a
very high degree of deference” (internal quotation marks
omitted)).
Finally, as Sparks chose not to challenge the unlawful
solicitation finding in its petition for review, the Board is
entitled to summary enforcement on that issue. See CC1
Limited Partnership v. NLRB, 898 F.3d 26, 35 (D.C. Cir.
2018) (finding “summary enforcement is appropriate”
when an issue is not raised in petitioner’s “opening[]
brief”).
PER CURIAM
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/				
Michael C. McGrail
Deputy Clerk

10a
AppendixAND
B ORDER OF THE
APPENDIX B — DECISION
NATIONAL LABOR RELATIONS BOARD,
DATED MAY 24, 2018
NATIONAL LABOR RELATIONS BOARD
Cases 02-CA-142626 and 02-CA-144852
MICHAEL CETTA, INC. D/B/A SPARKS
RESTAURANT AND UNITED FOOD AND
COMMERCIAL WORKERS LOCAL 342.
May 24, 2018
DECISION AND ORDER
By Members Of Pearce, McFerran, and Emanuel
On November 18, 2016, Administrative Law Judge
Lauren Esposito issued the attached decision. The
Respondent filed exceptions and a brief in support.
The General Counsel filed an answering brief, and the
Respondent filed a reply. The General Counsel filed a
cross-exception and a brief in support, and the Respondent
filed an answering brief.
The National Labor Relations Board has delegated
its authority in this proceeding to a three-member panel.

11a
Appendix B
The Board has considered the decision and the record
in light of the exceptions1 and briefs2 and has decided to
affirm the judge’s rulings, findings, 3 and conclusions and
1. The judge recommended a broad cease-and-desist order.
We adopt the judge’s recommendation in the absence of a specific
exception. See Leiser Construction, 349 NLRB 413, 418 fn. 28 (2007),
enfd. 281 Fed. Appx. 781 (10th Cir. 2008).
2. The Respondent has requested oral argument. The request
is denied as the record, exceptions, and briefs adequately present
the issues and the positions of the parties.
The General Counsel moves to strike the Respondent’s brief
in support of its exceptions on the ground that it fails to comply
with the Board’s Rules and Regulations in that it does not contain
references to the specific exceptions to which its arguments relate.
Although the Respondent’s brief does not comply in all particulars
with Sec. 102.46(a)(2), we accept it because the Respondent’s brief is
otherwise substantially compliant. See Metta Electric, 338 NLRB
1059, 1059 (2003).
The General Counsel moves to strike the appendix to the
Respondent’s brief in support of its exceptions. We agree with the
General Counsel that the documents comprising the appendix were
not introduced as evidence at the hearing and, therefore, cannot be
introduced into the record at this point. See Sec. 102.45(b) of the
Board’s Rules and Regulations. Accordingly, we grant the General
Counsel’s motion to strike them. S. Freedman Electric, Inc., 256
NLRB 432, 432 fn. 1 (1981).
3. The Respondent has excepted to some of the judge’s
credibility findings. The Board’s established policy is not to overrule
an administrative law judge’s credibility resolutions unless the clear
preponderance of all the relevant evidence convinces us that they
are incorrect. Standard Dry Wall Products, 91 NLRB 544 (1950),
enfd. 188 F.2d 362 (3d Cir. 1951). We have carefully examined the
record and find no basis for reversing the findings.

12a
Appendix B
We deny the Respondent’s motion to reopen the record to receive
additional evidence. The evidence the Respondent seeks to adduce
has not been shown to be newly discovered or previously unavailable,
as required by Sec. 102.48(c)(1) of the Board’s Rules and Regulations.
The Respondent excepts to the judge’s finding that it violated
Sec. 8(a)(1) by soliciting employees to withdraw their support
for the Union. The Respondent, however, does not state, either
in its exceptions or supporting brief, any grounds on which this
purportedly erroneous finding should be overturned. Therefore,
in accordance with Sec. 102.46(a)(1)(ii) of the Board’s Rules and
Regulations, we shall disregard this exception. See Holsum de
Puerto Rico, Inc., 344 NLRB 694, 694 fn. 1 (2005), enfd. 456 F.3d
265 (1st Cir. 2006).
In adopting the judge’s conclusion that the Respondent violated
Sec. 8(a)(3) and (1) by failing and refusing to reinstate and by
discharging the striking employees, we find it unnecessary to pass on
whether the Respondent also violated Sec. 8(a)(3) and (1) by denying
employees their right to be placed on a preferential hiring list. Finding
the additional 8(a)(3) violation would not materially affect the remedy.
Member Pearce agrees that it is unnecessary to pass, but he further
notes that it is undisputed the Respondent did not provide evidence
of a preferential hiring list prior to September 11, 2015.
Member Emanuel agrees that the Respondent violated Sec.
8(a)(3) and (1) by failing and refusing to reinstate the striking
employees after their unconditional offer to return to work. He
finds that the Respondent failed to carry its burden to prove, as an
affirmative defense, that it hired permanent replacements before
the unconditional offer to return. The Respondent was required to
prove “a mutual understanding with the replacements that they are
permanent,” and it failed to do so. See Jones Plastic & Engineering
Co., 351 NLRB 61, 64 (2007), pet. for rev. denied. 544 F.3d 841 (7th
Cir. 2008); Consolidated Delivery & Logistics, Inc., 337 NLRB 524
(2002), enfd. 63 Fed. Appx. 520 (D.C. Cir. 2003). Member Emanuel
observes that the Respondent’s letters to the replacements offering
them employment would have been adequate to establish a mutual
understanding if the Respondent had provided specific evidence of

13a
Appendix B
to adopt the recommended Order as modified and set forth
in full below.4
ORDER
The National Labor Relations Board orders that the
Respondent, Michael Cetta, Inc. d/b/a Sparks Restaurant,
New York, New York, its officers, agents, successors, and
assigns, shall
1. Cease and desist from
(a) Discharging or otherwise discriminating against
employees for engaging in an economic strike.
(b) Failing and refusing to reinstate striking
employees to their former or substantially equivalent
when the letters were signed by the replacements and returned.
Member Emanuel also finds it unnecessary to pass on whether the
Respondent violated Sec. 8(a)(3) and (1) by discharging the striking
employees because the additional violation would not materially
affect the remedy.
We shall modify the judge’s remedy and recommended Order
in accordance with our decision in AdvoServ of New Jersey, Inc., 363
NLRB No. 143 (2016), and to conform to our findings and the Board’s
standard remedial language. We shall also substitute a new notice
to conform to the Order as modified.
4. The General Counsel filed a limited cross-exception asking
the Board to reconsider its remedy for unlawfully discharged
economic strikers who were permanently replaced prior to their
discharge. In view of our finding that the Respondent failed to
establish it had permanently replaced the striking employees, we
find it unnecessary to pass on this exception because it would not
affect the remedy.

14a
Appendix B
positions of employment in the absence of a legitimate
and substantial business justification.
(c) Soliciting employees to withdraw their support
for the United Food and Commercial Workers Local 342
(Union).
(d) In any other manner interfering with, restraining,
or coercing employees in the exercise of the rights
guaranteed them by Section 7 of the Act.
2. Take the following affirmative action necessary to
effectuate the policies of the Act.
(a) Within 14 days from the date of this Order, offer
Gerardo Alarcon, Fredy Albarracin, Marko Beljan, James
Campanella, Ian Collins, Elvis Cutra, Arlind Demaj,
Kristofer Fuller, Adam Gjevukaj, Valjon Hajdini, Elvi
Hoxhaj, Juan Iriarte, Ante Ivre, Amir Jakupi, Bardhyl
Kelmendi, Jeton Kerahoda, Milazim Kukaj, Rachid
Lamniji, Valon Lokaj, Silvio Lustica, Iber Mushkolaj, Gani
Neziraj, Kenan Neziraj, Xhavit Neziraj, Adnan Nuredini,
Juan Patino, Sadik Prelvukaj, Francisco Puente, Ermal
Qelia, Nagip Resulbegu, Khalid Seddiki, Youssef Semlalo
El Idrissi, Fatlum Spahija, Andrzej Stepien, Alim Tagani,
and Mergim Zeqiraj full reinstatement to their former
jobs or, if those jobs no longer exist, to substantially
equivalent positions, without prejudice to their seniority
or any other rights or privileges previously enjoyed.
(b) Make the above employees whole for any loss of
earnings and other benefits suffered as a result of the
discrimination against them, in the manner set forth in

15a
Appendix B
the remedy section of the judge’s decision as amended in
this decision.
(c) Compensate the affected employees for the adverse
tax consequences, if any, of receiving lump-sum backpay
awards, and file with the Regional Director for Region 2,
within 21 days of the date the amount of backpay is fixed,
either by agreement or Board order, a report allocating
the backpay awards to the appropriate calendar years for
each employee.
(d) Within 14 days from the date of this Order, remove
from its files any reference to the unlawful discharges, and
within 3 days thereafter, notify the employees in writing
that this has been done and that the discharges will not
be used against them in any way.
(e) Preserve and, within 14 days of a request, or such
additional time as Regional Director may allow for good
cause shown, provide at a reasonable place designated by
the Board or its agents, all payroll records, social security
payment records, timecards, personnel records and reports,
and all other records, including an electronic copy of such
records if stored in electronic form, necessary to analyze
the amount of backpay due under the terms of this Order.
(f) Within 14 days after service by the Region, post
at its New York, New York facility copies of the attached
notice marked “Appendix.”5 Copies of the notice, on forms
5. If this Order is enforced by a judgment of a United States
court of appeals, the words in the notice reading “Posted by Order
of the National Labor Relations Board” shall read “Posted Pursuant

16a
Appendix B
provided by the Regional Director for Region 2, after being
signed by the Respondent’s authorized representative,
shall be posted by the Respondent and maintained for 60
consecutive days in conspicuous places, including all places
where notices to employees are customarily posted. In
addition to physical posting of paper notices, notices shall
be distributed electronically, such as by email, posting
on an intranet or an internet site, and/or other electronic
means, if the Respondent customarily communicates with
its employees by such means. Reasonable steps shall be
taken by the Respondent to ensure that the notices are
not altered, defaced, or covered by any other material.
If the Respondent has gone out of business or closed the
facility involved in these proceedings, the Respondent shall
duplicate and mail, at its own expense, a copy of the notice
to all current employees and former employees employed
by the Respondent at any time since December 19, 2014.
(g) Within 21 days after service by the Region,
file with the Regional Director for Region 2 a sworn
certification of a responsible official on a form provided
by the Region attesting to the steps that the Respondent
has taken to comply.
3. Substitute the attached notice for that of the
administrative law judge.
Dated, Washington, D.C. May 24, 2018

to a Judgment of the United States Court of Appeals Enforcing an
Order of the National Labor Relations Board.”

17a
C
APPENDIX CAppendix
— DECISION
OF THE
ADMINISTRATIVE LAW JUDGE,
DATED NOVEMBER 18, 2016
Cases 02-CA-142626 and 02-CA-144852
MICHAEL CETTA, INC. D/B/A SPARKS
RESTAURANT AND UNITED FOOD AND
COMMERCIAL WORKERS LOCAL 342.
DECISION
STATEMENT OF THE CASE
LAUREN ESPOSITO, Administrative Law Judge.
Based upon a charge in Case 02-CA-142626, filed on
December 10, 2014, and amended on January 9, 2015, and
upon a charge in Case 2-CA-144852, filed on January 22,
2015, by United Food and Commercial Workers Local
342 (“Local 342” or “the Union”), an Order consolidating
cases, consolidated complaint, and notice of hearing
issued on May 29, 2015 (the “complaint”). The complaint
alleges that Michael Cetta, Inc. d/b/a Sparks Restaurant
(“Sparks” or “Respondent”) violated Sections 8(a)(1) and
(3) of the Act by failing and refusing to reinstate striking
employees despite an unconditional offer to return to
work, denying the striking employees their right to be
placed on a preferential hiring list, and discharging the
striking employees. The complaint further alleges that
Sparks violated Section 8(a)(1) by soliciting employees to
withdraw their support for the Union. On September 18,
2015, the Regional Director, Region 2 issued an Order
amending complaint and amendment to complaint stating
that as part of the Remedy General Counsel seeks an order
requiring that Respondent offer reinstatement to all of the

18a
Appendix C
striking employees and make them whole from the date
of their discharge, despite the fact that Respondent had
previously hired permanent replacement employees. This
case was tried before me on October 7, 9, and 13 through
16, 2015, in New York, New York.
After the conclusion of the trial, the parties filed
briefs, which I have read and considered. Base on those
briefs, and the entire record in the case, including the
testimony of the witnesses and my observation of their
demeanor, I make the following
FINDINGS OF FACT
I. JURISDICTION
Sparks is a restaurant located at 210 East 46th Street,
New York, New York, engaged in the sale of food and
beverages. Sparks admits and I find that it is an employer
within the meaning of Section 2(2), (6), and (7) of the Act.
Sparks stipulated at the hearing and I find that Local
342 is a labor organization within the meaning of Section
2(5) of the Act (Tr. 7).
II. ALLEGED UNFAIR LABOR PRACTICES
A. The Facts
1.

Background

Respondent operates a steakhouse restaurant at its
210 East 46th Street location, preparing and serving

19a
Appendix C
food and drinks to individual customers and for private
parties arranged on its premises (Tr. 245-246, 250). The
restaurant is on two floors with some rooms for individual
or “a la carte” dining and other small rooms for private
events (Tr. 249-250). Sparks is open Monday through
Friday for both lunch and dinner, and on Saturday for
dinner only (Tr. 246). Lunch begins around 11:30 a.m.
or noon, and runs until approximately 3 p.m. (Tr. 246).
Dinner begins at around 5 p.m., and continues until the
customers with the last reservation finish their meals (Tr.
246). Sparks employs waiters and bartenders, as well as
kitchen workers such as cooks/chefs, dishwashers, and
prep workers (Tr. 246-247). Respondent also employs
an office manager, Shailesh Desai, and an assistant to
Desai (Tr. 248). Desai testified at the hearing on behalf
of Sparks.
Michael and Steven Cetta are owners of Sparks, and
its president and vice president, respectively. Sparks
stipulated at the hearing that Michael and Steven Cetta,
as well as Maitre’d Valter Kapovic, were at all material
times supervisors within the meaning of Section 2(11) of
the Act, and agents of Sparks acting on its behalf within
the meaning of Section 2(13) (Tr. 7). Steven Cetta testified
at the hearing that as vice president he is responsible for
overseeing “everything” and “everybody.” (Tr. 244.) In
addition to Kapovic, Sparks employs managers named
Abdul, Ricardo (Cordero), Octavio, and Nick, all of whom
report to Steven Cetta (Tr. 244-245). In addition, since
2009, Sparks has engaged Susan Edelstein as a human
resources consultant (Tr. 287-288). Edelstein testified
in that capacity and as Custodian of Sparks’ personnel
records (Tr. 288).

20a
Appendix C
2.

Events prior to the December 10, 2014
strike

Local 342 was certified as the exclusive collectivebargaining representative of a unit of waiters and
bartenders at Sparks on July 11, 2013, and since then the
parties have had approximately 8 negotiating sessions but
have not entered into a collective-bargaining agreement
(Tr. 32-34, 174-175). Negotiations have been generally
attended by Director of Contracts, Louis LoIacono,
his executive assistant Mary Ann Kelly, representative
Carolina Martinez, and Shop Stewards Kristofer Fuller
and Valjon Hajdini for Local 342 (Tr. 99-100, 154, 175-176).
Attorneys Marc Zimmerman and Regina Faul, Steven
Cetta, and Susan Edelstein have attended negotiations
for Sparks. (Tr. 100, 176, 251.)
After a bargaining session on December 5, 2014,
frustrated with what they perceived of a lack of movement
on the part of Sparks in negotiations, the waiters and
bartenders decided to go on strike that evening (Tr.
34). The waiters and bartenders went on strike for
approximately 2 hours on the evening of December 5, 2014,
from roughly 7 to 9 p.m., returning to work after making
an unconditional offer (Tr. 34-35, 47, 55-56, 101-102).
Waiter Valjon Hajdini testified that the next day,
December 6, 2014, Manager Valter Kapovic asked to
speak with him when he arrived at work. The two spoke
in the Madison Room downstairs, one of the rooms used
for private parties. Hajdini testified that Kapovic said he
was concerned about the waiters and bartenders’ going on

21a
Appendix C
strike. According to Hajdini, Kapovic stated that he was
interested in buying the restaurant, and had investors,
but that the strike would “drag the business down” and
the investors would “back off.” Hajdini stated that the
waiters and bartenders “were not looking to go on strike
again,” but were only looking for “a simple contract.”
Hajdini stated that, “if you don’t want us to go on strike . . .
make an offer that is easy for us to accept.” Kapovic said
that he was going to talk to Steve Cetta, “and see if we
can do something about that.” Kapovic then asked “can
we vote the Union out” if he and his investors bought the
restaurant. Hajdini responded, “I don’t see why the Union
bothers you. All we want is a simple contract—that we get
treated fairly.”1 [Tr. 39-40.]
3.

T he December 10 , 2 014 st r i ke a nd
subsequent events

Frustrated with the lack of progress in negotiations,
the waiters and bartenders began another strike at
approximately 7 p.m. on December 10, 2014 (Tr. 35-36,
102-105, 154-155, 252). A total of 36 employees engaged in
the strike, 34 waiters and 2 bartenders. 2 The nonstriking
1. Kapovic did not testify at the hearing.
2. The bartenders and waiters who engaged in the strike
beginning December 10, 2014, are Gerardo A larcon, Fredy
Albarracin, Marko Beljan, James Campanella, Ian Collins, Elvis
Cutra, Arlind Demaj, Kristofer Fuller, Adem Gjevukaj, Valjon
Hajdini, Elvi Hoxhaj, Juan Iriarte, Ante Ivre, Amir Jakupi, Bardhyl
Kelmendi, Jeton Kerahoda, Milazim Kukaj, Rachid Lamniji, Valon
Lokaj, Silvio Lustica, Iber Mushkolaj, Gani Neziraj, Kenan Neziraj,
Xhavit Neziraj, Adnan Nuredini, Juan Patino, Sadik Prelvukaj,

22a
Appendix C
employees consisted of bargaining unit employees who
decided not to participate in the strike and 5 employees
referred to by Respondent as “seasonal” (Respondent’s
posthearing br. at 34). Respondent stipulated at the
hearing and I find that the strike which began on
December 10, 2014, was concerted in nature (Tr. 7-8).
On December 19, 2014, the striking employees
together with union representatives Steve Boris and John
decided to make an unconditional offer to return to work.
Bartender Elvi Hoxhaj testified that between 3:30 and
4:30 p.m. that day, he and the two union representatives
decided that they would go into the restaurant and make
an unconditional offer to return to work. As they entered
the restaurant, they were stopped in the vestibule by a
security guard. Boris explained to security that Hoxhaj
was a worker and they were union representatives, and
that “they wanted to talk to management and ownership
about an unconditional offer to return to work.” According
to Hoxhaj, security told the group to stay where they
were, and the security guard would go inside and convey
the message. Hoxhaj then saw the security guard speak
to Kapovic, who was on the phone. After they spoke, one
of the security guards returned to speak with Hoxhaj
and the union representatives, who stated, “we’re just
trying to get an unconditional offer to return to work.”
The security guard responded, “I know, but they don’t
want you in here.” [Tr. 156-159.] Other employees were
subsequently informed by Boris that Local 342 had made
Francisco Puente, Ermal Qelia, Nagip Resulbegu, Khalid Seddiki,
Youssef Semlalo El Idrissi, Fatlum Spahija, Andrzej Stepien, Alim
Tagani, and Mergim Zeqiraj.

23a
Appendix C
an unconditional offer for the striking employees to return
to work, which Sparks had rejected (Tr. 59-60, 82-85).
On December 19, 2014, at 8:55 p.m., Local 342
Secretary-Treasurer sent the following email to Marc
Zimmerman:
Good evening. I am Lisa O’Leary, Secretary
Treasurer of UFCW Local 342 and I am
authorized to send you this email on behalf
of Local 342. Local 342 today has made an
unconditional offer to return to work, and that
offer remains. President Abondolo shared with
me his email exchange with you earlier today. I
write again to confirm that the offer to return to
work is unconditional, and tied to no additional
action being performed by your client. UFCW
Local 342 continues its offer to bargain prior
to your January 8th date, but this continuing
offer to bargain, which has at all times been
rejected by your client, is separate from Local
342’s unconditional offer to return to work. I
suspect you are aware of this, but if not I am
telling you so here.
***
The community groups, NYPD, and the local
Councilman have all spoken with Local 342 at
various times in the last week to inquire if the
Union and your client are talking, and at least
make an attempt to resolve the dispute. We

24a
Appendix C
have sadly had to report that you rejected the
free services of Federal Mediation, and are
in fact not interested in communication prior
to January 8th. Because various people in the
community have expressed concern about the
situation, UFCW made the unconditional offer
to return to work today as a demonstration
of good faith. Your client has so far rejected
the offer. It is the Union’s position that the
employees are locked out, unless or until the
employer should accept the unconditional offer
to return to work.
I close by telling you that since your client has
rejected the free services of a professional
labor mediator, Local 342 believes we should
at this time restrict communications with
you to one person at Local 342. We do this
with the intent of reducing opportunity for
unintentional misunderstandings. President
Abondolo requested I provide you with my cell
number [...] in the event your client wishes to
communicate with the Union prior to January
8th. You have my email address. Should your
client wish to accept the unconditional offer to
return, I would be your contact person. Should
any other matter arise, I am your contact
person. At this time Local 342 will of course
meet on January 8th if your client is willing to
do so. We will need to find a neutral, acceptable
place to meet, so at some point prior to the 8th
of January you can let me know when that can

25a
Appendix C
be discussed. We can use the Federal Mediation
offices in Woodbridge New Jersey for free, even
if your client will not permit the assistance of a
Federal Mediator. If that is not acceptable then
we will have to agree to a hotel. Thank you for
your time.
The next morning at 10:31 a.m., Zimmerman wrote to
O’Leary acknowledging receipt of her email, and on
Monday, December 22, 2014, at 10:53 a.m. sent O’Leary
the following response:
I write in response to your e-mail Friday
evening and apologize for not getting back to
you sooner.
The e-mails I received on Friday from Janel
D’Ammassa (on Rich’s behalf) did not propose
an unconditional offer to return to work of the
striking employees. Rather, Rich’s offer was
conditioned on Sparks’ agreement to “meet
for a bargaining session some time between
Christmas and New Year’s Eve.” Nonetheless, I
understand from your e-mail that the union has
since revised that position and now proposes an
unconditional return of the striking employees.
Due to serious misconduct and unprotected
activity by the union, its representatives and
the striking employees during the two separate
strikes at Sparks between December 5 and
December 19, including without limitation,

26a
Appendix C
violence, threats and intimidation towards
patrons and employees, destruction of property
and trespass, be advised that Sparks must
reject the union’s offer to return the striking
employees to work at this time. After much
consideration, Sparks has determined this
option best protects the safety and security of
its patrons, employees and delivery people from
the conduct described above, and reserves all
legal rights in connection with the union’s and
Sparks’ employees’ conduct.
Sparks’ decision has no bearing on its desire to
continue to bargain in good faith with the union
for an initial contract, and we look forward to
meeting in person on January 8. Alternatively,
Sparks would be able to reschedule our next
bargaining session to January 7, if the union
would be willing to push our normal start time
back a bit to 11:30 a.m. Please let me know if
that date/time works for the union. Woodbridge,
New Jersey is not a convenient location for us to
meet. If the union is unwilling to use our offices
(as has been our custom to alternate between
our place and yours), we can arrange for a
“neutral” site that is more accessible to both
parties. In the interim, I fully expect to provide
you with Sparks’ written counter-proposals to
the union’s December 10 bargaining proposals
early this week and welcome any written
response the union sees fit to make in advance
of our in-person bargaining session.

27a
Appendix C
O’Leary responded at 11:14 a.m.:
U FC W Loca l 3 4 2 d isag rees w ith you r
characterization of events in the second and
third paragraphs below. I restate: UFCW
Local 342 continues to make an unconditional
offer to return to work, and that our position
is that Sparks employees are locked out. I
restate: UFCW Local 342 urges your client
to reconsider its position regarding mediation
services. I will need to make sure January 7th
is good before I confirm, but will get back to
you without unreasonable delay. Thank you for
your response, and I will pass it on.
[GC Exh. 9.]
The parties also discussed the return of the striking
employees at the next negotiating session, on January 8,
2015. Louis LoIacono, the union’s spokesperson at this
session, testified that much of the session consisted of
the Union’s requesting information necessary for it to
formulate bargaining proposals (Tr. 176-178). LoIacono
testified that after bargaining concluded he had asked
Marc Zimmerman to speak with him. Zimmerman
approached with Sparks attorney, Regina Faul, and
LoIacono asked Zimmerman if he was going to respond
to the Union’s unconditional offer to return to work, and
return the striking employees to their jobs. Zimmerman
responded that he was protecting Sparks’ property at the
time and could not do so, and suggested that LoIacono “put
it in writing.” LoIacono asked Zimmerman whether he

28a
Appendix C
had any “proof or evidence of anything,” and Zimmerman
again told him to put an information request in writing.
[Tr. 176-177; see also Tr. 36-37, 106-107, 126-127.] LoIacono
and the shop stewards informed the striking employees
of the events of this negotiating session (Tr. 38-39, 107108, 177-178).
Subsequently on January 9, 2015, Jhana Branker,
Abondolo’s executive assistant, sent an email on
Abondolo’s behalf to Zimmerman, requesting information
on a number of different topics (Tr. 179; GC Exh. 3). The
email contained the following request for information:
7. Copy of any evidence and/or videos that the
employer has pertaining as evidence to support
the employer’s representative’s response to the
Union’s unconditional return to work. We were
told in writing by the employer representative
that the employees could not return to work
due to the fact that the representative was
protecting his client’s property due to incidents
that took place at Sparks which had nothing
to do with the employees or the strike or the
lockout.
GC Exh. 3, p. 22. On February 5, 2015, Zimmerman
responded to this request for information as follows:
Response and Objections: Sparks objects
to Request 7 as it facially seeks irrelevant
information “which had nothing to do with
the employees or the strike or the lockout.”

29a
Appendix C
Subject to the foregoing objection and the
General Objections above, Sparks responds
that all terms and conditions of employment
for bargaining unit employees are subjects of
bargaining presently being negotiated with
the union.
GC Exh. 3, p. 19. LoIacono testified that the Union never
received any information from Sparks in response to this
request (Tr. 229-230).
LoIacono testified that during the negotiating sessions
he attended after the strike began—on January 8 and 20,
and February 25, 2015—Sparks never stated that it had
prepared a list or an order for the recall of the striking
employees, or that it would return the striking employees
to work at all (Tr. 181-182). On August 25, 2015, LoIacono
received a copy of a letter from Steven Cetta to striking
employee Adnan Nuredini (Tr. 182-183; GC Exh. 4).
This letter stated that “As a result of the departure of a
permanent replacement employee,” 3 Sparks was offering
Nuredini “full reinstatement to a position as a waiter,
effective immediately, consistent with your preferential
rehire rights as an economic striker under the National
Labor Relations Act” (GC Exh. 4). LoIacono wrote to Cetta
that same day, requesting a copy of Sparks’ preferential
rehire list and information regarding its preparation,
and a list of the permanent replacement employees (Tr.
3. The evidence establishes that Sparks hired and reassigned
employees to replace the economic strikers. Because so much of
the evidence regarding the replacement employees is contested in
various ways, it will be discussed infra.

30a
Appendix C
183; GC Exh. 5). LoIacono also stated, “Notwithstanding
the above demand, Local 342 considers all the employees
who are subjects of the pending NLRB case4 to have been
illegally discharged and to be entitled to reinstatement
with full back pay” (GC Exh. 5). On September 11, 2015,
Faul responded to LoIacono’s information request,
and attached a “Preferential Rehire List” and a list of
permanent replacements (GC Exh. 6). Faul sent LoIacono
an amended list of permanent replacements on October
5, 2015 (GC Exh. 7). LoIacono testified that prior to
September 11, 2015, he had never seen or been told of the
preferential rehire list by Sparks (Tr. 186).
B.

Discussion and Analysis
1. Failure to reinstate the striking employees
after their unconditional offer to return
to work

The complaint alleges that since on or about December
19, 2014, Sparks has failed and refused to reinstate any
of the striking employees, despite their having made
an unconditional offer to return to their former or
substantially equivalent positions of employment on that
date, in violation of Sections 8(a)(1) and (3) of the Act.
Complaint P 7(a-b). It is wellsettled that economic strikers
are entitled to immediate reinstatement to their former
positions after making an unconditional offer to return
to work, absent a “legitimate and substantial” business
justification. Laidlaw Corp., 171 NLRB 1366 (1968), enfd.
4. The charges in the instant case had already been filed.

31a
Appendix C
414 F.2d 99 (7th Cir. 1969); Jones Plastic & Engineering
Co., 351 NLRB 61, 64 (2007); Supervalu, Inc., 347 NLRB
404, 405 (2006). The hiring of permanent replacement
employees in order for the employer to continue its
business operations prior to an unconditional offer to
return to work constitutes a legitimate and substantial
business justification. Jones Plastic & Engineering Co.,
351 NLRB at 64; Supervalu, Inc., 347 NLRB at 405.
The burden of proving the existence of a legitimate and
substantial business justification for failing to reinstate
economic strikers lies with the employer. Supervalu, Inc.,
347 NLRB at 405, citing NLRB v. Fleetwood Trailer Co.,
389 U.S. 375, 379, 88 S. Ct. 543, 19 L. Ed. 2d 614 (1967);
Peerless Pump Co., 345 NLRB 371, 375 (2005). In order to
satisfy this burden, the employer must provide “specific”
proof that it reached a “mutual understanding” with
the replacements that they were permanent employees
prior to the unconditional offer to return to work. Jones
Plastic & Engineering Co., 351 NLRB at 64; Consolidated
Delivery & Logistics, 337 NLRB 524, 526 (2002), enfd. 63
Fed Appx. 520 (D.C. Cir. 2003); Towne Ford, 327 NLRB
193, 204 (1998).
In addition, it is well settled that in the event that
no vacancy in the striking employees’ classifications
exists, the employer is required to place them “on a
nondiscriminatory recall list until a vacancy occur[s].”
Peerless Pump Co., 345 NLRB at 375. Subsequently,
reinstatement is contingent upon the occurrence of a
“genuine job vacancy” or a “Laidlaw vacancy,” which is
engendered when the employer expands its workforce,
discharges an employee, or when an employee quits or

32a
Appendix C
leaves the employer.5 Pirelli Cable Corp., 331 NLRB 1538,
1540 (2000), quoting NLRB v. Delta-Macon Brick & Tile
Co., 943 F.2d 567, 572 (5th Cir. 1991). General Counsel
bears the burden of establishing that a Laidlaw vacancy
exists.6 Pirelli Cable Corp., employees are entitled to full
reinstatement, unless they have “acquired regular and
substantially equivalent employment” or the employer
proves that there were legitimate and substantial
business reasons for failing to offer the striking employees
reinstatement at the time. Peerless Pump Co., 345 NLRB
at 375, quoting Laidlaw Corp., 171 NLRB at 1369-1370.
Here, the Complaint alleges that since December 19, 2014,
Sparks has denied the striking employees their right to be
placed on a preferential hiring list, and General Counsel
asserts that Sparks has failed to reinstate the striking
employees to vacant positions as they have occurred.
Complaint ¶ 7(c).
5. Temporary transfers of employees, by contrast, do not create
a Laidlaw vacancy. Pirelli Cable Corp., 331 NLRB at 1540.
6. General Counsel contends that under Kurz-Kasch, Inc.,
301 NLRB 946, 949 (1991), a decline in the employer’s workforce
below prestrike levels “creates the presumption that vacancies
existed,” which can be rebutted by proof on the employer’s part
of “substantial and legitimate business reasons” for the existing
number of employees. However, that analysis was part of the
decision of the Sixth Circuit remanding the case. Kurz-Kasch, Inc.,
301 NLRB at 946, 948-949; Kurz-Kasch, Inc. v. NLRB, 865 F.2d
757 (6th Cir. 1989). Thus, while the Sixth Circuit’s burden-shifting
analysis constituted the law of that particular case, it has not been
subsequently applied with any degree of uniformity. I note that the
Sixth Circuit’s analysis in Kurz-Kasch, Inc. was cited at length by
the ALJ in Laidlaw Waste Systems, but the Board did not discuss it
in upholding her decision. See Laidlaw Waste Systems, 313 NLRB
680, 680-682 fns. 3, 7, and at 694 (1994).

33a
Appendix C
Sparks argues that it had permanently replaced
the striking employees prior to their December 19, 2014
unconditional offer to return to work. Sparks further
contends that a downturn in its business overall obviated
the need for the level of waitstaff that had been employed
prior to the December 10, 2014 strike. Additionally,
Sparks claims that it had been “overstaffed” in the past
due to the striking employees’ lack of reliability, which
required a larger group of employees to cover during
unanticipated absences. Sparks asserts that it therefore
had fewer available waitstaff and bartender positions after
the strike, and thus a legitimate business justification for
refusing to reinstate the striking employees.
Sparks and General Counsel base their contentions
regarding the pre-strike employee complement and
existing Laidlaw vacancies after the December 19, 2014
unconditional offer on different types of records created
by Sparks in the ordinary course of its operations, and
dispute the documents’ probative value accordingly.
General Counsel argues that Weekly Tip records—
spreadsheets recording the weekly tips of all employees—
most accurately reflect Sparks’ complement of waistaff
and bartenders at any given point in time (GC Posthearing
Br. p. 23). Sparks asserts that Daily Tip records—
handwritten notes of tip calculations made on a daily
basis—more accurately depict the staffing needs of the
restaurant, in that they record how many employees
worked each day (RS Posthearing Br. at p. 37). I find that
the Weekly Tip records more accurately reflect the overall
number of Sparks’ waitstaff and bartender employees
for any particular period. The Daily Tip records only

34a
Appendix C
indicate the employees working any particular day and
shift, and thus do not establish the full complement of
Sparks employees.7 Because every Sparks employee does
not work every single shift, the Daily Tip records do not
encompass the entire workforce. The Weekly Tip records,
by contrast, list every waiter and bartender employed by
Sparks, regardless of the individual days they worked
during the week in question.
In addition, the Daily Tip sheets produced by
Respondent and submitted into evidence were not
complete, and were not provided for critical time
periods. For example, the one week of Daily Tip sheets
in September, November, and December 2014 Sparks
submitted for the purposes of comparison with Weekly Tip
records submitted by General Counsel were actually Daily
Tip sheets for September, November, and December 2013.
(RS Exh. 25.) The December 1, 2014, through December
6, 2014 Daily Tip sheets were included elsewhere in the
record (RS Exh. 8), but not the Daily Tip sheets for the
comparator weeks in September and November. Therefore,
it is not apparent that Sparks’ records submitted for these
weeks provide a comprehensive and reliable reflection of
7. The case of Sparks waiter Joanna is illustrative. Edelstein
testified at the hearing that Joanna was out of work on an extended
medical leave, and her name was therefore redacted from the Daily
Tip record (Tr. 530-531; RS Exh. 8). However, during her testimony
Edelstein also stated that Joanna was still an employee of Sparks,
regardless of her having been removed from the Daily Tip record,
and her name appears on the Weekly Tip record (Tr. 536-539; GC
Exh. 13(b)). This evidence indicates that the Daily Tip record does
not contain a complete record of Sparks’ waiters and bartenders
during the pertinent periods.

35a
Appendix C
the waitstaff and bartenders employed during the stated
periods. As a result, the Weekly Tip records provide a
more comprehensive account of Sparks’ waitstaff and
bartender employees overall.
Furthermore, the evidence does not support Sparks’
contention that it kept an inflated roster of employees
prior to the strike, which was no longer necessary because
the replacement employees were more reliable. Sparks
argues in its Post-Hearing Brief that the employees who
participated in the strike called out of work and took
time off “at their discretion,” forcing Respondent to rely
on “backup” workers which were no longer necessary
after the replacement employees began (RS Posthearing
Br. at p. 38-39). Sparks therefore contends that the total
number of waiters and bartenders employed prior to the
strike was artificially inflated, and is not probative with
respect to the ultimate number of Laidlaw vacancies which
existed subsequently. However, the record establishes
that, as Sparks states in its Posthearing brief, “Sparks
daily staffing needs fluctuate throughout the year” (RS
Posthearing Br. at 40). The record evidence in the form
of credible employee testimony further establishes that
Sparks’ practice in the past was to allow employees
to take extended vacations or other forms of time off
during periods which were not as busy, as opposed to
laying them off (Tr. 41-42, 117-118, 160-161). For example,
waiter Valjon Hajdini credibly testified that he began his
employment with Sparks in September 2008, and worked
about 42 hours per week—six dinners and one lunch—
until the December 10, 2014 strike (Tr. 26). During this
time he observed that while more employees were hired
immediately before the busy season, during the slower

36a
Appendix C
season not a single employee was terminated (Tr. 41-42).
Instead, the roster of employees simply rotated days of
work, and employees took longer vacations or time off (Tr.
41-42). Hajdini testified that more employees were hired
every fall only because some employees left Sparks for
better jobs, became ill, or were fired, creating a shortage of
staff prior to the busier months (Tr. 42). Waiter Kristopher
Fuller similarly testified that since the inception of his
employment with Sparks in 2007 employees were kept on
from the busy period into the slower period, and the only
turnover that occurred happened naturally as employees
left for better jobs or were fired (Tr. 120-122). Bartender
Elvi Hoxhaj also testified that during the 12 years he was
employed by Sparks, employees were never laid off during
the slower months (Tr. 152). Based on his observations,
Hoxhaj testified that the available work was distributed
evenly, so that each waitstaff employee worked 4 or 5 days
per week rather than 6, or the employees each took longer
vacations. Hoxhaj stated that he only witnessed employees
leave their employment with Sparks when they were
discharged or “because of personal reasons” (Tr. 160-161).
Sparks offered no explanation for its departure from this
practice after the inception of the strike. Thus, I am not
persuaded by its contention that its prestrike employee
complement was artificially enlarged, and therefore not
useful to determine the existence of Laidlaw vacancies.
Sparks’ Weekly Tip records establish that the
restaurant employed a total of 46 waiters and bartenders
immediately prior to December 10, 2014 (GC Exh. 13(b)). 8
8. The payroll for this period contains only 45 waiters and
bartenders, because Joanna did not work and therefore was not
paid (GC Exh. 13(d)).

37a
Appendix C
The payroll for the period immediately after the strike
began (December 15 through 21, 2014) lists a total of 37
waiters and bartenders (GC Exh. 16). 9 Therefore, the
record establishes that from the inception of the strike on
December 10, 2014, and through the time of the striking
employees’ unconditional offer to return to work on
December 19, 2014, there were at least 9 vacant waiter/
bartender positions.
Respondent contends that it did not return the striking
employees to work after their unconditional offer to return
for substantial and legitimate business reasons. First,
Sparks asserts that it hired permanent replacements
for the striking employees prior to their unconditional
offer to return to work on December 19. Sparks further
argues that a downturn in its overall business obviated
the need for the amount of waiters and bartenders it
had previously employed, thereby justifying its refusal
to reinstate the striking employees. As discussed above,
the employer bears the burden of proving the existence
of a legitimate and substantial business justification
for failing to reinstate economic strikers following an
unconditional offer to return to work. Supervalu, Inc.,
347 NLRB at 405; Peerless Pump Co., 345 NLRB at 375.
For the following reasons, I find that Sparks has failed to
satisfy this standard.
9. There were no Weekly Tip records produced for this or
any other week until the week of January 19 through 24, 2015.
Information was therefore culled from both the Weekly Tip records
(which constitute the most accurate reflection of the roster of
employees) and the payroll records (reflecting the wages actually
paid for a given week) to establish that there were 46 employees
immediately prior to the strike and 37 immediately thereafter.

38a
Appendix C
In order to establish that economic strikers were not
returned to work after an unconditional offer because
their positions had already been filled by permanent
replacements, the employer must present “specific” proof
of having reached a “mutual understanding” with the
replacements to that effect. Jones Plastic & Engineering
Co., 351 NLRB at 64; Consolidated Delivery & Logistics,
337 NLRB at 526. Thus, the employer must present
evidence that the circumstances of the replacement
employees’ hiring show that the replacements “were
regarded by themselves and [the employer] as having
received their jobs on a permanent basis.” Consolidated
Delivery & Logistics, 337 NLRB at 526, quoting Target
Rock Corp., 324 NLRB 373 (1997), enfd. 172 F.3d 921,
335 U.S. App. D.C. 320 (D.C. Cir. 1998). Evidence of the
employer’s intent to hire the replacements on a permanent
basis is insufficient. Consolidated Delivery & Logistics,
337 NLRB at 526. Furthermore, evidence of an offer of
work on a permanent basis is inadequate absent a showing
that the replacement employee accepted the offer prior to
the striking employees’ unconditional offer to return to
work. Choctaw Maid Farms, Inc., 308 NLRB 521, 527-528
(1992), citing Solar Turbines, 302 NLRB 14 (1991), affd.
sub nom. Machinists v. NLRB, 8 F.3d 27 (9th Cir. 1993)
(employer’s statement to replacements that they “had a
job” insufficient to establish hiring on a permanent basis
without evidence that replacements accepted offer).
The evidence establishes that Sparks obtained
replacement employees via three different methods. Six
kitchen employees were reassigned to waitstaff positions,10
10. These employees had been employed by Sparks in kitchen
positions for some time prior to being reassigned to waitstaff work.

39a
Appendix C
five purportedly “seasonal” employees hired before the
strike began became replacements, and 23 replacement
employees were hired directly after the strike began.
The available evidence establishes that Sparks used
similar documents when it hired or reassigned these
employees to permanent replacement positions, and
Sparks contends that these employees thereby constituted
permanent replacements for the economic strikers prior
to the unconditional offer to return to work on December
19, 2014. In particular, the replacement employees were
provided with a letter stating as follows:
It is a pleasure to extend to you an offer of
employment in a permanent position as Waiter
[Bartender], for Michael Cetta, Inc. dba Sparks
Steak House.
Your start date will be December 15, 2014. Your
compensation will be paid based on a weekly
basis (52 pay period per year) of $8.00/hour
(less tip credit) and applicable tips.
Eligibility for medical insurance benefits will
begin following ninety (90) days of continued
employment. The Company’s employee benefits
programs are described under separate cover,
and the terms of the official plan documents
See GC Exh. 6 and 7; Tr. 264-265. Because the evidence establishes
that Sparks hired new employees to replace the kitchen workers who
were transferred into waitstaff positions, the waitstaff positions into
which they transferred constituted Laidlaw vacancies. GC Exh. 14
and 23(B). See Pirelli Cable Corp., 331 NLRB at 1540; K-D Lamp
Co., 229 NLRB 648, 650 (1977).

40a
Appendix C
govern all issues of eligibility and benefits, in
the event of a conflict between the contents of
this letter and the terms of the plan documents.
Based on the Company’s time-off policies,
employees become eligible for paid time off as
explained fully in our employee handbook. If
the Company develops other benefit programs
for which you may be eligible, the Company
will advise you accordingly. The Company
reserves the right to modify, supplement, and
discontinue all employee benefits programs in
its sole discretion.
In accordance with the Immigration Reform
and Control Act, we are required to verify that
you are legally entitled to work in the United
States. You will be required to complete an
I-9 form on your first day of employment,
and present original documents establishing
identity and employment eligibility.
This offer is not a contract for employment; your
employment is “at-will” and may be terminated
at any time for any reason by you or Michael
Cetta, Inc.
Congratulations on your new position! We are
very excited to have you join our organization,
and we are sure that you will be a valuable
addition to Sparks Steak House. Please do not
hesitate to call me at 212.687.4806 should you
have any questions.

41a
Appendix C
Sincerely,
Shailesh Desai
RS Exh. 7(a-hh). These letters were signed by both Desai
and all but one were signed by the individual employees.
All of the letters contained typewritten dates across the
top preceding the text. Two of the letters were dated
December 11, 2014, 26 were dated December 15, and six
were dated December 19.11 The letters were signed by the
replacement employees, but the signatures were not dated.
Again, it is Sparks’ burden to establish that it reached
a mutual understanding with these employees regarding
their status as permanent replacements for the economic
strikers prior to 4 p.m. on December 19, 2014, when the
unconditional offer to return to work was made. I find that
the evidence adduced by Sparks to attempt to elucidate the
understanding it reached with the replacement employees,
and the time at which the agreement regarding their
employment status was arrived at, is insufficient to do so.
11. The alleged “seasonal employees” were given two offer
letters. The first, distributed in October and November 2014
depending upon the employee, begins, “It is a pleasure to extend
you an offer of seasonal employment as a Waiter for Michael Cetta,
Inc. dba Sparks Steak House. Your start date will be DATE. Your
compensation will be paid on a weekly basis (52 pay periods a year)
of $ 8.00/hour (less tip credit) and applicable tips.” [R.S. Exh. 6(ad)] There is no end date or time period for employment specified
in the letter. Furthermore, the evidence establishes that prior to
the December 10, 2014 strike Sparks had never hired employees on
a seasonal basis whose employment terminated after the busiest
months. Instead, the evidence establishes that employees hired
from October to December were always maintained on the roster
and allowed to take vacation or unpaid time off as business slowed.

42a
Appendix C
Sparks did not call any of the replacement employees to
testify regarding the process by which they were hired or
reassigned, and their understanding regarding the nature
of their employment thereafter. Edelstein testified that
she was responsible for finding, interviewing, and “going
through the process of hiring waiters” on December 11,
2014 (Tr. 419).12 She testified that she “contacted staffing
agencies” and sought referrals from Sparks’ current staff,
and that she “did a series of many, many, many interviews
in the course of the day,” ultimately offering positions
to prospective employees (Tr. 419). She was not asked
for and did not provide any additional information about
her interactions with candidates during the interviews.
According to Edelstein, this process began on December
11, 2014, and continued “over the course of a few days,” but
she could not recall with any more specificity how long the
process took, or how many replacement employees were
hired (Tr. 419-420).
Edelstein was no more detailed with respect to the
letters offering permanent replacement positions, and
their distribution, signature, and return. Edelstein
testified that she and Desai prepared the letters offering
permanent employment13 (Tr. 421; RS Exh. 7(a-hh)). She
further testified that she handed the letters to replacement
employee candidates (Tr. 423-424). However, she did not
witness their signatures on the letters, and did not know
whether the replacement employees signed the letters on
12. Edelstein testified that she was not at Sparks on December
10, 2014, when the strike began (Tr. 418-419).
13. Desai testified on behalf of Sparks, but was not questioned
regarding the offer letters or his involvement in the interview and
hiring process.

43a
Appendix C
the date that, presumably, either she or Desai placed at
the top of the text (Tr. 424, 534-535; R.S. Exh. 7(a-hh)).
Nor could she testify with any specificity regarding when
the individual letters were returned with the replacement
employees’ signatures. Her testimony regarding the
receipt of the signed offer letters comprising Respondent’s
Exhibit 7 was nebulous and significantly equivocal:
Q: And do you recall the last day that you
received any of these documents returned to
you?
A: I know that the last person — I don’t it. It
was — you know, whenever it was issued, it was
within a day or so that we got them back. So
whenever the last one was issued is when I got
it back. I don’t know the exact last day. I think
it was — let me just take — can I just look at
something?
Q: Sure.
A: Thanks.
(The witness examined the document.)
THE WITNESS: It was — I believe it was the
19th of December. The last day that we got this
one — these back.
Tr. 426.

44a
Appendix C
I simply do not find Edelstein’s testimony regarding
the hiring process and the offer letters probative.
She provided virtually no information regarding her
interactions with the replacement employee candidates,
which would elucidate whether and when a mutual
understanding regarding their employment status arose.
Although Edelstein’s testimony ostensibly encompassed
all of the offer letters—including those provided to
the reassigned kitchen workers and the “seasonal”
employees—her narrative testimony appeared to pertain
solely to the newly hired replacement employees, and not
to either of the former groups.14 Her testimony regarding
when Sparks received the offer letters signed by the
replacement employees was vague and equivocal. In
particular, I note that the list of permanent replacement
employees provided to LoIacono on September 11, 2015,
contains hiring dates for the replacement employees at
odds with the dates of the offer letters (GC Exh. 6; R.S.
Exhs. 7(a-hh)). And because several of the offer letters
are dated December 19, 2014, if Sparks received them
signed by the employee “within a day or so,” it is doubtful
that all of the offer letters were received with employee
signatures as of that date, as Edelstein claims (RS Exhs.
7(l, m, x, aa, bb, hh)).
Furthermore, the available payroll records do
not illuminate the situation. For example, four of the
six ostensibly reassigned kitchen employees and all
23 of the newly hired replacement employees appear
14. The only evidence regarding the reassignment of the kitchen
employees is Steve Cetta’s testimony that their reassignment to
waitstaff positions took place after December 10, 2014 (Tr. 264-265).

45a
Appendix C
on the payroll as waitstaff for the period December 15
through 21, 2014. However, the payroll evidence does not
establish the date that the newly hired employees began
working, or that the kitchen employees began working
as waitstaff, with any further specificity (GC Exh. 16;
Tr. 300-301). Furthermore, one of the former kitchen
employees first appears as waitstaff on the payroll for the
period December 22 through 28, 2014, and another does
not appear as waitstaff on the payroll until the period
January 5 through 11, 2015, well after the unconditional
offer to return to work (GC Exh. 18 and 20). In addition,
Daily Tip sheets and Weekly Tip records which would
have established the precise dates that the newly hired
employees began working and that former kitchen
employees worked as waitstaff by virtue of their receipt
of tips were not produced by Respondent. As a result, the
available documentary evidence does not establish that the
former kitchen workers and the 23 newly hired employees
constituted permanent replacements for the striking
waitstaff and bar tenders prior to the unconditional offer
to return to work on December 19, 2014.
General Counsel asserts that an adverse inference
should be drawn based upon Sparks’ failure to produce
documents—in particular Weekly and Daily Tip recordswhich would have shown the exact date that the kitchen
workers and newly hired replacements began working
as waitstaff and bartenders during the period from
December 15 through 19, 2014. General Counsel also
asks that I draw an adverse inference based on Sparks’
failure to call as a witness manager Ricardo Cordero,
who signed the letters offering “seasonal” employment

46a
Appendix C
and hired Jonathan Sturms in February 2015. For the
following reasons, I find that such adverse inferences are
appropriate.
Succinctly stated, the adverse inference rule consists
of the principle that “when a party has relevant evidence
within his control which he fails to produce, that failure
gives rise to an inference that the evidence is unfavorable
to him.” Auto Workers v. NLRB, 459 F.2d 1329, 1335-1336,
1972 U.S. App. LEXIS 11659 (D.C. Cir. 1972) (describing
the adverse inference rule as “more a product of common
sense than of the common law”); see also Metro-West
Ambulance Service, Inc., 360 NLRB No. 124 at p. 2-3
and at fn. 13 (2014); SKC Electric, 350 NLRB 857, 872
(2007). An adverse inference may be drawn based upon a
party’s failure to call a witness within its control having
particular knowledge of the facts pertinent to an aspect of
the case. See Chipotle Services, LLC, 363 NLRB No. 37,
p. 1, fn. 1, p. 13 (2015) (adverse inference is particularly
warranted where uncalled witness is an agent of the party
in question); SKC Electric, Inc., 350 NLRB at 872-873. An
adverse inference may also be drawn based upon a party’s
failure to introduce into evidence documents containing
information directly bearing on a material issue. See
Metro-West Ambulance Service, Inc., 360 NLRB No.
124 at p. 2-3 (failure to produce subpoenaed accident
reports pertinent to the “treatment of similarly situated
employees” warrants adverse inference that records would
have established that such employees were treated more
leniently than discriminatee); Massey Energy Co., 358
NLRB 1643, 1692, fn. 63 (2012); see also Zapex Corp., 235
NLRB 1237, 1239 (1978).

47a
Appendix C
The adverse inference rule does not require that
the party seeking the adverse inference have sought
the witness testimony or documents via subpoena. Auto
Workers v. NLRB, 459 F.2d at 1338 (applicability of the
adverse inference rule “in no way depends on the existence
of a subpoena compelling production of the evidence in
question”). However, where a subpoena applicable to the
particular witness or documentary evidence in question
has been served, the rationale for drawing an adverse
inference is strengthened. Auto Workers v. NLRB, 459
F.2d at 1338 (“the willingness of a party to defy a subpoena
in order to suppress the evidence strengthens the force
of the preexisting inference”); People’s Transportation
Service, Inc., 276 NLRB 169, 223 (1985). An adverse
inference has been deployed as a discovery sanction in such
cases. See, e.g., McAllister Towing & Transportation
Co., 341 NLRB 394, 396 (2004), enfd. 156 Fed. Appx. 386
(2d Cir. 2005).
In the instant case, Sparks failed to produce or enter
into evidence either Weekly or Daily Tip records for one
of the most significant weeks in question, December
15 through 21, 2014. Such records, by establishing
any shifts worked by alleged replacement employees,
would tend to substantiate Respondent’s claim that the
striking employees were permanently replaced prior to
their unconditional offer to return on December 19 at 4
p.m. Not only were such records subpoenaed by General
Counsel, but I denied Sparks’ petition to revoke and
ordered the production of these documents on October
1, 2015. Although Sparks subsequently produced copious
documents involving employee payroll and tips for 5

48a
Appendix C
years dating back to January 2010, it failed to introduce
evidence with regard to this critical week. Furthermore,
there was no indication from Sparks’ witnesses that such
documents had not been created or maintained in the
ordinary course of its business. Edelstein testified that
Weekly Lunch and Dinner Tip records (GC Exh. 13(b))
are kept for every week the restaurant is open (Tr. 294,
321). She also testified that it would be impossible to
determine, from the payroll records alone, what day of
any given week an employee worked (Tr. 300-303). Cetta
stated in his testimony that schedules such as the dinner
schedule in evidence as GeneralCounsel Exhibit 13(a) are
kept in the ordinary course of business for every week the
restaurant is open (Tr. 266). Sparks entered into a similar
stipulation with respect to Weekly Tip records (GC Exh.
13(b)), and employee hours summaries (GC Exh. 13(c)) (Tr.
284). Because there was no documentary or testimonial
evidence to elucidate the specific date that replacement
employees signed and returned their offer letters, or the
date on which a mutual understanding that employees
were permanent replacements was reached, evidence
establishing the specific dates of employment during the
period December 15 through 21 was critical. Yet Sparks
failed to produce records having a direct probative bearing
on this issue, records which were admittedly made and
kept in the ordinary course of its business, despite my
order denying the Petition to Revoke and requiring that
they do so. Such a course of events militates in favor of
drawing an adverse inference to the effect that if the
records in question had been produced, they would not
have established that reassigned kitchen employees and
newly hired replacements employees were performing

49a
Appendix C
waitstaff and bartending work prior to the unconditional
offer to return to work on December 19. See Zapex Corp.,
235 NLRB at 1239 (failure to produce personnel files
of alleged permanent replacement employees warrants
inference that records would have tended to show that
replacements were not in fact permanent).
I further find it appropriate to draw an adverse
inference based on Sparks’ failure to call its Manager
Ricardo Cordero as a witness.15 As discussed above,
Cordero was both the signatory to the seasonal offer
letters and the manager who hired Jonathan Sturms in
February 2015. Edelstein testified that she created the
“seasonal employment offer” template used by Cordero
and signed by him16 (Tr. 411-413; RS Exh. 6(a)-(d)). As a
result, Cordero would most likely have had information
regarding the understanding between the “seasonal”
hires and Sparks prior to their allegedly obtaining a
permanent replacement position. Edelstein testified that
she only interviewed one of the five alleged “seasonal
employees,” Luis Calle, whose offer letter was never
signed and returned (Tr. 416-418). Edelstein further
testified that she did not recall giving the seasonal
employment letters to employees Andrew Globus, Mostafa
15. Cetta testified that Ricardo Cordero was still employed by
Sparks as a manager at the time of the hearing (Tr. 244).
16. Desai testified that he signed offer letters in fall 2014 in
anticipation of the busy season at Sparks, but his signature does not
appear on the “seasonal” offer letters (Tr. 649-650). This leads me to
conclude that in his testimony he was referring to offer letters he gave
to the former kitchen workers, the other newly hired replacements,
or to the “seasonal” employees in mid-December 2014.

50a
Appendix C
Belabez, Luis Vasconez, or Anass Kesley (Tr. 463; RS
Exh. 6(a)-(d)). As Cordero’s signature was on the offer
letters for these four “seasonal” employees, his testimony
would have illuminated the status of their employment.
Testimony could have also been elicited regarding his
general experience in hiring for Sparks as related to
positions of “seasonal employment.” For example, some
of the “seasonal” offer letters contain dated signatures,
indicating that this process differed from the hiring
and reassignment process for the alleged permanent
replacement employees in December (RS Exh. 6(a, b,
d)). Thus I find it appropriate to infer that had Cordero
testified, his testimony would not have supported a finding
that the “seasonal” employees’ understanding regarding
their status was consistent with that of a legitimate
permanent replacement.
I also find it appropriate to draw an adverse inference
based upon Sparks’ failure to call Cordero given Cordero’s
hiring of employee Jonathan Sturms in February 2015.
Although Edelstein testified that Cordero hired Sturms
without the proper authorization, her testimony was
inconsistent on this point (Tr. 427). Edelstein initially
contended that Sparks changed the process for hiring
after the strike, and that she explained the new
procedures, which required Steve Cetta’s specific approval
for hiring staff, at a management meeting (Tr. 473-474,
476). According to Edelstein, the managers responded,
“we need people, what do we do? What do we do?” She
testified that she responded by attempting to “alleviate
their anxiety and stress about what was going on,” and
to “help them understand that we understand that we

51a
Appendix C
are short waiters or we need people or whatever it is,
we understand” (Tr. 478). However, Edelstein and Cetta
then purportedly discharged Sturms after discovering
that Cordero had hired him without consulting Cetta, in
violation of this policy, because, “No one should have been
hired” and “We didn’t need anybody” (Tr. 502-505). When
questioned further regarding why Strums was hired if
Sparks did not need additional help, Edelstein claimed
that Cordero apologized, saying he had made a mistake
(Tr. 555-556). Thus, Cordero’s testimony regarding how
the hiring of Sturms came about—whether Sparks was
actually “short waiters” or whether Sturms’ hiring was a
“mistake” because Respondent “didn’t need anybody”—
would have been illuminating. I thus find that Sparks’
failure to call Cordero to testify regarding the hiring of
Sturms warrants an adverse inference that Cordero’s
testimony would not have supported Sparks’ contentions
regarding these issues.
The record evidence establishes additional Laidlaw
vacancies, as identified by General Counsel. For example,
General Counsel contends that the replacement employees
Andreas Zenteno, Freddy Guzhnay, Carlos “Alex” Ruiz,
and Maximillian Vainshtub left Sparks sometime between
December 22, 2014, and January 18, 2015, creating
Laidlaw vacancies that Sparks did not recall striking
employees to fill (GC Br. 34-35). Edelstein confirmed this
in her testimony (Tr. 328-335). General Counsel further
contends that a striking employee should have been
recalled to work when waiter Helene DeLillo left Sparks’
employment on or before January 4, 2015. Edelstein
confirmed in her testimony that DeLillo did not appear

52a
Appendix C
on or after the January 5-11, 2015 payroll (GC Exh. 20;
Tr. 325, 327, 331). Sparks adduced no evidence as to why
DeLillo’s position or the four others identified above were
not offered to striking employees, other than general
arguments regarding overstaffing and seasonality which
I am rejecting herein. I therefore find that departure of
Zenteno, Guzhnay, Ruiz, Vainshtub, and DeLillo created
Laidlaw vacancies, to which Sparks was obligated to
respond by offering these positions to striking employees.
I further find that because there is no evidence that
DeLillo was hired as a permanent replacement prior to the
unconditional offer to return to work, her position should
have been made available to a striking employee upon
the unconditional offer to return to work on December
19, 2014.
Sparks further claims that a downturn in its business
necessitated a smaller staff, so that its failure to recall
the striking employees after their unconditional offer to
return to work can be justified on this basis. The evidence
adduced at the hearing, however, does not satisfy Sparks’
burden to prove that strained financial circumstances
obviated the need for what had previously been a full
complement of employees, either at the time of the
unconditional return to work or thereafter.
First of all, it is undisputed that December is the
busiest month of the year at Sparks due to holiday
parties and celebrations. Financial records introduced
into evidence establish that, as is typical, December 2014
was the month of that year with Sparks’ highest sales
(Tr. 646-648, G.C. Appendix A, and RS Exh. 16). Thus,

53a
Appendix C
the December 10, 2014 strike and December 19, 2014
unconditional offer to return to work took place during
the time that Sparks did its highest volume of business
for the year. It is also undisputed that Sparks transferred
kitchen workers and hired employees to work in lieu of the
striking employees, both during this time and thereafter.
There is no question that Sparks did so out of necessity.
As Edelstein testified, when she met with management
personnel after the strike began and told them that all
new hires in the future must be approved by Cetta, the
managers responded, “we need people, what do we do?
What do we do?” (Tr. 478). Edelstein testified that her
response attempted “to not only alleviate their anxiety
and stress about what was going on, but to help them
understand that we understand that we are short waiters
or we need people” (Tr. 478). Furthermore, although
December is the busiest month of the year for Sparks,
the “slow” season takes place over the summer, and not in
January and February (Tr. 41, 115, 645-646; GC Appendix
A). Thus, while Sparks’ financial records establish that its
total gross profit declined from December 2013/January
2014 to December 2014/January 2015, the restaurant was
still at the height of its busy season when the strike and
unconditional offer to return to work took place, and had
not yet entered its slowest season when striking employees
were not recalled to replace employees whose employment
terminated in early 2015.
Furthermore, the evidence establishes, as General
Counsel argues, that the decline in sales which Sparks
experienced from December 2014 to January 2015 was
not as drastic as Sparks contends. The documentary

54a
Appendix C
evidence establishes that over the past five years the
December 2014 to January 2015 decline is actually the
second smallest decline for that period (GC Appendix
A; RS Exh. 16). And, as discussed above, the evidence
establishes that Sparks has never before laid off waitstaff
and bartenders, even during its slow season over the
summer. Instead, these employees remained employed,
taking long vacations or leaves of absence and dividing
the available work. The evidence does not support any
reason for Sparks’ departure from this practice, even
during periods of larger or more dramatic declines in
business from December of one year to January of the
next. See Kurz-Kasch, Inc., 301 NLRB 946, n. 3, 951 fn.
6 (evidence did not establish previously-existing practice
of temporarily shifting employees, which Respondent
contended obviated the necessity of recalling striking
employees); Austin Powder Co., 141 NLRB 183, 186 (1963),
enfd. 350 F.2d 973 (6th Cir. 1965) (Respondent’s claim
that economic decline necessitated layoffs was suspect,
where it did not discharge employees at a different plant
which suffered a similar decline in business). I further
note that there is no evidence that Sparks took other steps
to address purported issues of overstaffing caused by
the decline in business, such as transferring the former
kitchen workers back to their previous positions.17 Therefore Sparks’ attempt to justify its refusal to recall the
striking employees to work on this basis is not persuasive.
17. This is particularly the case given that, as General Counsel
argues and calculations based on payroll records confirm, kitchen
workers ultimately “cost” Sparks 4.5 times more in payroll than
waitstaff and bartenders, because Sparks is ineligible for a tip
credit with respect to the kitchen workers. See RS Exhs. 15, 17; GC
Posthearing Br. at p. 46, fn. 33.

55a
Appendix C
The cases cited by Sparks in support of its defense
that a decline in its business constituted a substantial
business justification for failing to return the striking
employees to work as vacancies arose are inapposite. For
example, in Providence Medical Center, 243 NLRB 714,
738-739 (1979), the workload in the laboratory where the
striking technologists were employed was reduced due
to the simultaneous strike of a separate bargaining unit
of nurses at the Respondent hospital, and Respondent
hired only one short-term laboratory employee during
the 2 1/2 months after both strikes concluded. Similarly,
in Bushnell’s Kitchens, Inc., 222 NLRB 110, 117 (1979),
the employer hired no replacement employees during the
strike in question, employees responsible for sales instead
performed production work during the strike resulting in
a decline in orders, and an OSHA inspector ordered the
employer to cease using certain production equipment. In
William O. McKay Co., 204 NLRB 388, 389, 393 (1973),
Respondent reduced its overall workforce by almost
forty percent (from 100 to 65 employees) during the year
before the strike began. Finally, in Colour IV Corp., 202
NLRB 44, 44-45 (1973), the Board found that the striking
employee not returned to work lacked the qualifications
Respondent required for the poststrike work available.
As a result, I find that these cases are not analogous to
the circumstances at issue here.
For all of the foregoing reasons, I find that Sparks has
failed to establish that an economic decline constituted a
legitimate and substantial business justification for failing
to reinstate the striking employees.

56a
Appendix C
Finally, I find that Sparks has offered shifting
rationales for its refusal to reinstate the striking
employees after their December 19, 2014 unconditional
offer to return to work that render its various explanations
suspect. In December 2014, Sparks was contending that
picket line misconduct constituted its sole reason for
failing to reinstate the striking employees. Zimmerman’s
December 22, 2014 email declining to reinstate the striking
employees provides only this justification, asserting that
they engaged in “violence, threats,” “intimidation,”
“destruction of property and trespass.” Nowhere does
Zimmerman mention that permanent replacement
employees had been hired prior to the striking employees’
unconditional offer, or that an economic downturn of some
sort had eliminated the need for the previous complement
of waitstaff and bartender employees. At the January 8,
2015 negotiating session Zimmerman continued to insist
that he could not return the striking employees to work
because he was “protecting Sparks property.” I further
note that Sparks did not provide any information in
response to Local 342’s request for information pertaining
to the incidents of, according to Zimmerman, “violence,
threats and intimidation . . . destruction of property and
trespass” that purportedly engendered Sparks’ decision to
refuse to reinstate the striking employees. The evidence
establishes that on January 9, 2015, Local 342 requested
“any evidence and/or videos . . . to support the employer’s
representative’s response to the Union’s unconditional
return to work,” namely the assertion that Zimmerman
“was protecting his client’s property due to incidents that
took place at Sparks” which the Union contended were not
caused by the strike or the striking employees (GC Exh.

57a
Appendix C
3, p. 22). It is well settled that the Board considers such
information to be necessary for a Union’s performance of
its duties as bargaining representative. See, e.g., NTN
Bower Corp., 356 NLRB 1072, 1139 (2011); Page Litho,
Inc., 311 NLRB 881, 891 (1993). Zimmerman’s response
that the requested information was “irrelevant” based
upon the Union’s contention that its activities and those
of the striking employees were not responsible for any
alleged incidents is legalistic circumlocution, as is his
assertion that “all terms and conditions for bargaining
unit employees are . . . presently being negotiated”
(GC Exh. 3, p. 19). Thus, the evidence establishes that
Sparks never provided anything to the Union in order
to substantiate its contention that “violence, threats and
intimidation . . . destruction of property and trespass”
justified the its refusal to reinstate the striking employees.
Now in its Posthearing Brief, Sparks has abandoned its
picket line misconduct argument, and contends that the
permanent replacement of the striking employees and
an economic downturn constitute its legitimate business
justifications for declining to offer reinstatement. I find
that the shifting explanations asserted by Sparks at
the time of the unconditional offer and January 2015
negotiating sessions, the hearing in this matter, and its
Posthearing Brief militate against crediting any one as a
legitimate and substantial business justification for failing
to reinstate the striking employees.
For all of the foregoing reasons, I find that since
December 19, 2014, Sparks has failed and refused to
reinstate the striking employees, despite their having
made an unconditional offer to return to work on that

58a
Appendix C
date, in violation of Sections 8(a)(1) and (3) of the Act. I
further find that Sparks violated Sections 8(a)(1) and (3)
by failing to reinstate the striking employees to vacant
waitstaff and bartender positions as they have occurred.18
2.

The preferential hiring list

The complaint alleges at Paragraph 7(c) that Sparks
violated Sections 8(a)(1) and (3) of the Act by failing and
refusing to place the striking employees on a preferential
hiring list. It is well settled that economic strikers making
an unconditional offer to return to work at a time when
their positions are filled by permanent replacements
remain employees, and “are entitled to full reinstatement
upon the departure of replacements unless they have in
the meantime acquired regular and substantial equivalent
employment.” Laidlaw Corp., 171 NLRB at 1369-1370. To
this end, the employer must maintain a “non-discriminatory
recall list” such that when openings become available, “the
unreinstated striker could be recalled to his or her former
or substantially equivalent position.” Peerless Pump Co.,
345 NLRB at 375. The burden of offering reinstatement
in this context rests with the employer; strikers and
the union are not required to approach the employer
regarding available positions. Laidlaw Corp., 171 NLRB
at 1369; see also Alaska Pulp Corp., 326 NLRB 522, 528
(1998) (employer required to “seek out strikers as their
prestrike or substantially equivalent positions become
available to offer reinstatement”).
18. The precise number of Laidlaw vacancies to which economic
strikers should have been reinstated is a matter for compliance.
Chicago Tribune Co., 304 NLRB 259, 277-278 (1991); Concrete Pipe
& Products Corp., 305 NLRB 152, 154 fn. 9 (1991).

59a
Appendix C
The evidence here fails to establish that Sparks
created or maintained a preferential hiring list prior to
September 11, 2015, when it provided a seniority list it was
purportedly using as a preferential hiring list to the Union
in response to the Union’s information request (GC Exhs.
5-7; Tr. 186). Sparks argues in its Posthearing Brief that
it had no obligation to inform the economic strikers or the
Union that permanent replacement employees had been
hired, citing Avery Heights, 343 NLRB 1301, 1305-1306
(2004), vacated and remanded on other grounds, 448 F.3d
189, 195 (2nd Cir. 2006).19 That case, however, addressed
an employer’s refusal to disclose its intention or plan to
hire permanent replacement employees; the employer
there informed the union that it was hiring permanent
replacement employees two weeks after the hiring began.
Avery Heights, 343 NLRB at 1306-1307. Here, by contrast,
Sparks declined for months to inform the Union regarding
its hiring of permanent replacement employees and the
existence of any preferential hiring list. It pursued this
course despite the Union’s reiteration of its unconditional
offer to return to work at the January 8, 2015 negotiating
session, the Union’s subsequent request for information
regarding Sparks’ rationale for refusing to reinstate the
striking employees, and subsequent bargaining sessions
(on February 25 and March 20, 2015, 20 for example).
19. The Second Circuit upheld the Board’s determination
that the employer in Avery Heights was not required to inform the
employees or the union prior to hiring permanent replacements,
but reversed the Board’s conclusion that its having done so did not
violate the Act.
20. Sparks attempted to elicit testimony from LoIacono to
the effect that on or about March 20, 2015, Abondolo told him that

60a
Appendix C
Furthermore, the evidence as discussed above establishes
that Sparks not only hired replacement employees, but
continued to do so through February 2015 (when it hired
Sturms) without informing the Union or the striking
employees. I also note that, if Sparks had truly eliminated
waitstaff and bartender positions for legitimate business
reasons such as a financial decline, the failure to notify the
Union “tends to militate against Respondent’s good faith
in dealing with the strikers.” Transport Service Co., 302
NLRB 22, 29 (1991). As a result, the evidence establishes
that Sparks failed to satisfy its obligation to create and
implement a preferential hiring list with respect to the
striking employees.
Sparks further argues that it discharged its duty
to create and maintain a preferential hiring list when it
notified the Board Agent by letter of March 5, 2015, that
the economic strikers had been permanently replaced. 21
I disagree. First of all, it is baffling that Sparks would
Zimmerman had stated that Sparks had permanently replaced the
striking employees (Tr. 208-213, 357). As Zimmerman chose not to
address this issue in his testimony, I credit LoIacono’s statement
that Abondolo never did so. In any event, affirmative testimony on
LoIacono’s part would have been nonprobative hearsay.

21. Sparks attached a copy of this letter to its Post-Hearing
Brief and raised this argument for the first time therein. General
Counsel subsequently moved to strike based upon Sparks’ failure to
enter the evidence into the record during the hearing. Respondent
countered that the ALJ may take judicial notice of records within
the agency’s own files. I have considered the letter submitted by
Sparks, but do not ultimately find it material to my conclusions on
the issue for the reasons which follow in the text.

61a
Appendix C
provide this information to the Board Agent during the
course of the investigation without providing it to the
Union, with whom it was interacting at least once per
month for contract negotiations. Notice provided to a
Board Agent during the investigation of an unfair labor
practice charge does not constitute notice to the Union
or the striking employees. Furthermore, in the March 5,
2015 letter itself, Sparks attempts to turn the evidentiary
burdens in this area on their head by complaining that
the Union had not actively sought bargaining regarding
returning the striking employees to work. As the abovedescribed caselaw makes clear, the onus for creating the
preferential hiring list and making offers of reinstatement
to economic strikers falls on the employer.
For all of the foregoing reasons, I find that Sparks
failed to and refused to place the striking employees on a
preferential hiring list in violation of Sections 8(a)(1) and
(3) of the Act.
3.

The alleged discharge of the strikers

The complaint further alleges at Paragraph 7(d) that
Respondent violated Sections 8(a)(1) and (3) of the Act
by discharging the striking employees on December 22,
2014. See Tri-State Wholesale Bldg. Supplies, Inc., 362
NLRB No. 85 at p. 1, fn. 1, p. 5 (2015) (enfd. 657 Fed.
Appx. 421, 2016 WL 4245468 (6th Cir. 2016)); Pride Care
Ambulance, 356 NLRB No. 128 at p. 1-3 (2011). General
Counsel contends that on December 22, 2014, Sparks
violated Sections 8(a)(1) and (3) by discharging the striking
employees via Zimmerman’s email to O’Leary. In order

62a
Appendix C
to determine whether a striker has been discharged,
the Board evaluates whether the employer’s statements
and actions “would logically lead a prudent person to
believe his [or her] tenure has been terminated.” Pride
Care Ambulance, 356 NLRB 1023, 1024, quoting Leiser
Construction LLC, 349 NLRB 413, 416 (2007), petition
for review denied, enfd. 281 Fed. Appx. 781 (10th Cir.
2008); see also Tri-State Wholesale Bldg. Supplies, Inc.,
362 NLRB No. 85, at p. 5. In order to determine whether
a prudent person would reasonably believe that their
employment had been terminated, “it is necessary to
consider the entire course of relevant events from the
employee’s perspective.” Pride Care Ambulance, 356
NLRB supra at 1024, quoting Leiser Construction LLC,
349 NLRB at 416. In addition, the Board has held that
any uncertainty created by the employer’s statements
or actions will be construed against it. Kolkka Tables &
Finnish-American Saunas, 335 NLRB 844, 846 (2001).
As the Board stated in Brunswick Hospital Center, if the
employer’s conduct engenders “a climate of ambiguity and
confusion which reasonably caused strikers to believe that
they had been discharged or, at the very least, that their
employment status was questionable because of their
strike activity, the burden of the results of that ambiguity
must fall on the employer.” 22 265 NLRB 803, 810 (1982);
see also Kolkka Tables & Finnish-American Saunas,
22. In its Posthearing Br., Sparks attempts to effectively
reverse the well settled rule construing ambiguities in this respect
against the employer by contending that the conduct of the Union and
the 401(k) plan administrator “inflamed” the employees and caused
any confusion regarding their employment status. RS Posthearing
Brief at 21-23 and 24-25. I decline to do so.

63a
Appendix C
335 NLRB at 846-847; Grosvenor Resort, 336 NLRB 613,
617-618 (2001).
I find under the above standard that Zimmerman’s
December 22 email on behalf of Sparks to O’Leary
constituted a discharge of the striking employees. In
this email, Zimmerman informs the Union, “be advised
that Sparks must reject the union’s offer to return
the striking employees to work at this time,” without
using the words “discharge” or “terminate.” However,
Zimmerman attributes Sparks’ refusal to return the
striking employees to work to “serious misconduct and
unprotected activity by . . . the striking employees during
the two separate strikes at Sparks between December
5 and December 19, including . . . violence, threats and
intimidation towards patrons and employees, destruction
of property and trespass.” Zimmerman goes on to describe
the refusal to return the striking employees to work as the
“option” that “best protects the safety and security of its
patrons, employees and delivery people from the [striking
employees’] conduct,” and raises the possibility of legal
action by stating that Sparks “reserves all legal rights in
connection with . . . Sparks’ employees’ conduct.” I find
that the striking employees could reasonably interpret
Zimmerman’s statements accusing them of “violence,
threats,” “intimidation,” “destruction of property and
trespass,” declining to return them to work to ensure “the
safety and security of [Sparks] patrons, employees and
delivery people,” and intimating potential legal action as
discharging them from employment. Thus, in the context
of the caselaw Zimmerman’s statements in his December
22 email, in conjunction with Respondent’s refusal to admit

64a
Appendix C
the employees onto Sparks’ premises on December 19
after their unconditional offer to return to work, would
lead the employees to reasonably believe that Sparks had
terminated their employment. 23
In reaching this conclusion, I reject Sparks’ argument
that Zimmerman’s December 22 email should be the
only piece of evidence considered in order to determine
whether Respondent discharged the striking employees
(RS Posthearing Br. at p. 18-20). Respondent contends that
because the consolidated complaint alleges at ¶ 7(d) that
Sparks, by Zimmerman’s email, discharged the striking
employees on December 22, no other evidence regarding
the status of the striking employees, or their interactions
with Sparks representatives, should be evaluated. However,
Sparks, having heard the evidence presented by General
Counsel, had a full and fair opportunity to adduce its own
23. I further note that some striking employees were provided
with contradictory information regarding their employment status
via Sparks’ health insurance plan administrator which, at the very
least, would raise the possibility that they had been discharged.
The evidence establishes that in January 2015, some employees
who participated in Sparks’ group health insurance plan received
letters stating that their coverage was being terminated based upon
a qualifying event in the form of a “termination,” and notifying them
of their rights under COBRA (GC Exh. 8; Tr. 196). One month later,
at least one employee was sent a second COBRA letter, describing
the qualifying event in question as a “reduction in hours” (RS Exh.
2). The employee to whom the second COBRA letter was addressed
testified that he never received it (Tr. 200-201). Nevertheless, I find
it unreasonable to place on the employees the onus for discerning
the meaning of different qualifying events under COBRA in order
to dispel the confusion regarding their employment status which
these letters doubtless engendered.

65a
Appendix C
evidence relevant to the alleged discharge of the striking
employees at the hearing. Sparks tacitly acknowledges as
much; at the hearing and in its Posthearing Brief, Sparks
stated, “neither [the December 22 email] nor any other
action by Sparks could have led a reasonable person to
believe Sparks had terminated any economic striker” (Tr.
352-354; Posthearing Br. at p. 18). In its Posthearing Brief
Sparks goes on to address, in addition to Zimmerman’s
December 22 email, the parties’ remarks at the January
20 bargaining session, and “confusion” which may have
been caused by the striking employees’ interactions with
the benefits plan administrator (Posthearing Br. at 25).
These arguments illustrate that, despite the wording of
the complaint’s allegation, Sparks had an opportunity to
respond to additional evidence presented by the General
Counsel which would tend to establish a reasonable belief
on the part of the striking employees that they had been
discharged.
Nor do I find persuasive the other evidence presented
by Sparks in support of its contention that the striking
employees could not have reasonably believed that they
were discharged. Sparks argues that as of January 8, 2015,
the striking employees’ personal belongings remained
in the employees’ lockers at Sparks, indicating that they
were still employed. However, this fact is irrelevant when
the employees had been barred by Sparks from returning
to the restaurant for any purpose in order to, according
to Zimmerman, protect the current employees and
Sparks’ property. 24 Sparks’ recall of one of the striking
24. Hajdini testified that at the time he did not know whether his
belongings remained in his locker, because he had not been allowed
back on Sparks’ premises (Tr. 64).

66a
Appendix C
employees in August 2015 cannot possibly be relevant to
the employees’ reasonable belief as to their employment
status during the seven intervening months. Furthermore,
the fact that termination letters, which had been issued
in the past, were not issued to the striking employees
does not clarify the ambiguity in their employment
status created by Sparks’ conduct. There is no evidence
that termination letters had been issued by Sparks as
a long-standing practice, 25 and Edelstein admitted that
sending such letters to discharged employees was a
practice only recently implemented (Tr. 472). As discussed
above, it is the perspective of the employees, and not the
specific conduct of the employer, that is considered in
determining whether they reasonably believed that they
were discharged. Given Sparks’ refusal to permit the
striking employees to enter the premises on December 19
and Zimmerman’s December 22 email, Sparks’ declining
to issue termination letters is insufficient to clarify the
ambiguity created by its other conduct in the minds of the
striking employees.
I am also unpersuaded by Sparks’ contention that the
language of the December 22 email is less explicit than
the statements at issue in Tri-State Wholesale Building
Supplies, Inc. and Grosvenor Resort which were found to
engender a reasonable belief that economic strikers had
been terminated. Tri-State Wholesale Building Supplies,
Inc. involved an unequivocal statement that the economic
25. Sparks introduced two letters threatening employees who
were apparently absent from work for two months with discharge if
they did not return to work within a stated period of time, but both
are dated September 24, 2014 (RS Exhs. 10, 11).

67a
Appendix C
strikers had been discharged. 362 NLRB No. 85 at p. 4
(“Please be advised you should not report for work at
Tri-State Wholesale for any future shifts as your position
has been filled and your employment terminated”).
However, as discussed above, the standard requires not a
definitive statement of discharge, but only circumstances
engendering a reasonable belief on the part of the
economic strikers that they have been terminated, with
ambiguities created by the employer’s conduct construed
against them. The ambiguity created by Sparks’ conduct
here—the refusal to allow the striking employees on the
premises on December 19 and Zimmerman’s December
22 email—was sufficient to create a reasonable belief
that the striking employees had been discharged. The
situation at issue in Grosvenor Resort, also cited by
Sparks, is more analogous to the events established by
the credible evidence here. In that case, the employer’s
communication to the striking workers stated “that they
had been permanently replaced . . . that they should bring
‘all their uniforms, hotel ID/timecard, and any other [of
the Respondent’s] property’ to the Respondent’s office,” to
receive “their ‘final check’ for their ‘final wages,’ including
any outstanding vacation pay” contractually available only
upon termination. Grosvenor Resort, 336 NLRB at 617618. The Board concluded that the employer’s references to
a “final check” for “final wages” and “outstanding vacation
pay” remittable solely upon discharge was sufficient to
create a reasonable belief that the striking employees had
been terminated. Here the references in Zimmerman’s
December 22 email to violence, threats, destruction of
property, and other unlawful conduct, together with the
implication of legal action, served a similar purpose.

68a
Appendix C
The issue of the striking employees’ understanding
is further complicated here by the fact that Sparks did
not inform the union or the strikers that it was hiring
permanent replacement employees. Of course, Sparks
was not required to do so. Avery Heights, 343 NLRB at
1305-1306. However, after December 19, 2014, Sparks
continued to rebuff the striking employees’ unconditional
offers to return to work at the parties’ January 8, 2015
negotiating session. The evidence also establishes that
at subsequent negotiating sessions on January 20 and
February 25, Sparks did not inform the union that it had
prepared a preferential hiring list or an order for the
recall of the striking employees. Sparks was within its
rights when it did not disclose its intent to hire permanent
replacement employees prior to doing so. However, this
does not somehow remove from consideration the effect
of its continued failure to provide this information to the
striking employees and the union, together with the failure
to provide a preferential hiring list, on the perception
of the striking employees regarding their employment
status.
In this regard, I find that Sparks’ shifting explanations
for its refusal to recall the striking employees particularly
pertinent. As discussed above, Zimmerman’s December
22 email provided one rationale for refusing to allow
the striking employees to return to work—picket line
misconduct, including “violence, threats,” “intimidation,”
“destruction of property and trespass.” The hiring of
permanent replacements—which had allegedly occurred
prior to that time—and a downturn in business which
resulted in the need for a smaller staff were not mentioned.

69a
Appendix C
At the January 8, 2015 negotiating session Zimmerman
reiterated this rationale, telling LoIacono that he could
not return the striking employees to work because he
was “protecting Sparks property.” When the Union
subsequently wrote to request information regarding
Zimmerman’s claim, Zimmerman responded with legal
sophistry, and never provided information. Now, however,
in its Posthearing Brief, Sparks does not even assert
that some sort of picket line misconduct constituted its
legitimate business justification for refusing to return
the striking employees to work. Instead, Sparks contends
that its legitimate business justifications consist of having
hired permanent replacement employees prior to the
striking employees’ unconditional offer to return to work,
and its economic downturn. These shifting contentions
support the conclusion that Sparks’ conduct with respect
to the union and the striking employees created ambiguity
regarding their status which should be construed against
Respondent.
Finally, Sparks contends that the striking employees
could not have interpreted the December 22 email as
discharging them because the email was sent to Charging
Party UFCW Local 342, and not to the employees. I find
this argument unpersuasive as well. The record indicates
that UFCW Local 342 was certified as the exclusive
collective-bargaining representative of Sparks’ waitstaff
and bartenders on July 11, 2013, and the parties have
been negotiating a collective-bargaining agreement
since that time. Shop stewards and striking employees
Kristofer Fuller and Valjon Hajdini attended collectivebargaining negotiations with Local 342 representatives.

70a
Appendix C
In this context, an assertion that email communications
with Local 342 regarding the ongoing strike and contract
negotiations were somehow insufficient to constitute notice
to the striking employees is contrary to the legal status
of the parties and simply defies common sense.
For all of the foregoing reasons, I find that Sparks
discharged the striking employees on December 22, 2014,
in contravention of their rights under Laidlaw and its
progeny, in violation of Sections 8(a)(1) and (3) of the Act.
4.

Kapovic’s alleged unlawful statement
soliciting employees to withdraw their
support for the union

The complaint further alleges at Paragraph 5 that
Sparks violated Section 8(a)(1) when Kapovic solicited
employees to withdraw their support for the union on
December 6, 2014. I find that during the meeting that
Kapovic initiated with shop steward and negotiating
committee member Valjon Hajdini, Kapovic solicited
Hajdini and the employees to abandon their support for
Local 342. I credit Hajdini’s uncontradicted testimony
that Kapovic asked to speak with him, and expressed his
opinion that another strike of the waiters and bartenders
would “drag the business down” and that the investors
with whom he was considering buying the restaurant
would “back off” as a result. I further credit Hajdini’s
testimony that Kapovic asked him whether the employees
would “vote the Union out” if Kapovic and the other
investors bought the restaurant.

71a
Appendix C
It is well settled that employer attempts to convince
employees to abandon their support for a union, or to
convince other employees to abandon their union support
or activities, violate Section 8(a)(1). See Ozburn-Hessey
Logistics LLC, 357 NLRB 1456, 1489 (2011) (solicitation
of employee to persuade another employee to abandon her
support for the union violated Section 8(a)(1)). In addition,
employer predictions of adverse business consequences
as a result of union representation violate Section 8(a)
(1) if they are not supported by an “objective factual
basis.” Tradewest Incineration, 336 NLRB 902, 907
(2001) (statement that union representation would make
it “unlikely that our parent company will view [employer]
as an appropriate location to invest in long-term capital”
coercive); see also General Electric Co., 321 NLRB 662, fn.
5, 666-667 (1996) (upholding ALJ finding of 8(a)(1) violation
based on General Manager’s remarks that “the company
that supplies the investment dollars for our growth . . . [is]
watching what happens here” and encouraging employees
to vote against the union); Limestone Apparel Group, 255
NLRB 722, 730-731 (1981) (investor’s statement that he
would not commit any additional resources to the plant if
the union came in violated Section 8(a)(1)).
I find that Kapovic’s statements were unlawful given
this legal context. Sparks admitted that Kapovic was at all
material times a supervisor within the meaning of Section
2(11), and an agent within the meaning of Section 2(13)
acting on Sparks’ behalf. Kapovic approached Hajdini
doubtless aware that Hajdini was a shop steward and
a member of the union’s negotiating committee, and by
asking Hajdini whether the employees as a group would

72a
Appendix C
“vote the Union out” appears to have been addressing
Hajdini in his representative capacity. Kapovic and
Hajdini also discussed the strike in the context of the
ongoing contract negotiations. When Hajdini stated to
Kapovic that the employees “were not looking to go on
strike again,” only for “a simple contract,” and that, “if
you don’t want us to go on strike . . . make an offer that
is easy for us to accept,” he was addressing Kapovic as
a representative of Sparks. Kapovic responded in that
capacity, stating that he would going to talk to Steve Cetta,
“and see if we can do something about that.” Accordingly,
after Kapovic then asked Hajdini whether the employees
could “vote the Union out” if Kapovic and his investors
bought the restaurant, Hajdini again referred to the
ongoing negotiations, stating, “All we want is a simple
contract—that we get treated fairly.”
Sparks contends in its Posthearing Brief that the
evidence does not establish a violation, because Hajdini
could not have reasonably believed that Kapovic was
“reflecting company policy and speaking and acting
for” Sparks’ management, given Kapovic’s comments
regarding purchasing the business himself. Posthearing
Brief at 46-47. However, Sparks admitted on the record
that Kapovic was a supervisor within the meaning of
Section 2(11) of the Act and an agent within the meaning
of Section 2(13) (Tr. 7). As General Counsel points out, it
is well settled that “an employer is bound by the acts and
statements” of statutory supervisors, “whether specifically
authorized or not.” Coastal Sunbelt Produce, 362 NLRB
No. 126 at p. 33 (2015); see also Grouse Mountain Lodge,
333 NLRB 1322, 1328 fn. 7 (2001); Manhattan Hospital,

73a
Appendix C
280 NLRB 113, 118 (1986). There is also authority for
the proposition that an employer is bound by the acts of
supervisors that are contrary to the employer’s directions.
See Rosedev Hospitality, Secaucus, LP, 349 NLRB 202
fn. 3, 210-211 (2007); Dixie Broadcasting Co., 150 NLRB
1054, 1076-1079 (1965).
By contrast, the cases discussed by Sparks in its
Brief involve situations where the individual in question
was neither a statutory supervisor nor an agent of the
employer, and the allegations that their statements
violated Section 8(a)(1) were dismissed on that basis. See
Pan-Oston Co., 336 NLRB 305, 305-307 (2001) (employee
who allegedly committed Section 8(a)(1) violations neither
a statutory supervisor nor an agent of Respondent
pursuant to Section 2(13)); Waterbed World, 286 NLRB
425, 426-427 (1987) (same). While, as discussed in PanOston Co., an employee may function as an agent of the
employer pursuant to Section 2(13) for one purpose but
not another, Sparks provides no support for the position
that that principle also applies to statutory supervisors
within the meaning of Section 2(11). 336 NLRB at 305306. The Board did apply this particular agency principle
to a statutory supervisor in Sea Mar Community Health
Center, 345 NLRB 947 (2005). However, that case involved
a renegade supervisor who established an expanded
dental lab and created a dental lab technician position,
in direct contravention of specific orders by employer’s
CEO and Deputy Director prohibiting him from doing
so. Sea Mar Community Health Center, 345 NLRB at
949-950. Characterizing the case as involving “unique
circumstances,” and an “unusual factual scenario,” the

74a
Appendix C
Board held that the employer did not violate Section 8(a)
(1) and (5) by refusing to provide the union with notice and
the opportunity to bargain regarding the closure of the
“rogue” dental lab and its effects. 26 Sea Mar Community
Health Center, 345 NLRB at 947, 949-951. As a result, I
do not find that case to be applicable here.
Instead, I find that the circumstances surrounding
Kapovic’s comments to Hajdini fall more appropriately
within the scope of cases ruling that an employer is bound
by the comments of a supervisor, even when unauthorized.
Kapovic and Hajdini were on Sparks’ premises and in
a work area when Kapovic initiated the conversation.
Although Kapovic referred to his interest in buying the
restaurant and potential investors, Hajdini responded in
terms of the current contract negotiations, stating that an
offer from Sparks that the employees could accept would
obviate the possibility of another strike. Kapovic in turn
did not respond as an individual seeking to establish his
26. I note that recently in Postal Service, 364 NLRB No. 62
(2016), the Board affirmed an ALJ’s order finding that a statutory
supervisor was acting in her personal interest, and not as an agent
within the scope of her employment, when she obtained a stalking
order against a union steward. The ALJ found, based on the
supervisor’s testimony, that the supervisor obtained the stalking
order as “an act of desperation...to alleviate her own personal fears.”
Postal Service, 364 NLRB No. 62 at p. 18. As a result, the ALJ found
that the only conduct of the supervisor imputable to the employer was
the supervisor’s enforcement of the terms of the protective order on
the employer’s premises, which interfered with the union steward’s
contract administration activities. Postal Service, 364 NLRB No. 62
at p. 1, 18-19. However, the Board noted that there were no exceptions
filed with respect to this particular conclusion. Postal Service, 364
NLRB No. 62 at p. 1, fn. 2. As a result, I do not consider the case to
have precedential import on the issue.

75a
Appendix C
own business; instead he said that he would speak to Cetta
and “see if we can do something about that.” Therefore,
it was reasonable for Hajdini to believe that Kapovic was
addressing him as a supervisor on behalf of Sparks, as
well as a possible purchaser of the business. I therefore
find that Sparks is bound by Kapovic’s comments.
For all of the foregoing reasons, I find that Sparks
violated Section 8(a)(1) when Kapovic unlawfully solicited
of employees to abandon their support for the Union on
December 6, 2014.
5.

Remedial issues

Under current Board law, lawful economic strikers
that have been unlawfully discharged are entitled to,
“full reinstatement to their former jobs, or, if those jobs
no longer exist, to substantially equivalent positions,
without prejudice to their seniority or any other rights or
privileges previously enjoyed, discharging, if necessary,
any replacements, and mak[ing] them whole for any loss
of earnings and other benefits.” Tri-State Wholesale
Building Supplies, 362 NLRB No. 85 at p. 1 (2015).
However, remedies available to economic strikers are
contingent upon whether the economic striker was
permanently replaced before or after their unlawful
discharge. Detroit Newspapers, 343 NLRB 1041-1042
(2004). If the strikers were permanently replaced after
the unlawful discharge, they are “entitled to immediate
reinstatement and backpay running from the date of the
discharge (regardless of when, or if, [they] unconditionally
offer[] to return to work).” Detroit Newspapers, 343

76a
Appendix C
NLRB at 1041-1042, citing Hormigonera del Toa, Inc.,
311 NLRB 956, 957-958, fn. 3 (1993). If the strikers were
lawfully permanently replaced prior to the discharge, they
are entitled to reinstatement upon the departure of the
employee that permanently replaced them, with backpay
running from the date that the replacement employee
leaves. Detroit Newspapers, 343 NLRB at 1041-1042.
Here, the economic strike began on December 10,
2014. The striking employees made an unconditional
offer to return to work on December 19, 2014, and were
subsequently discharged on December 22, 2014, in
violation of Sections 8(a)(1) and (3) of the Act. However,
in this case the remedial distinction articulated in
Detroit Newspapers is irrelevant given my conclusion
that Respondent has not satisfied its burden to prove
that it had permanently replaced the economic strikers
prior to the unconditional offer to return to work on
December 19, 2014. As a result, the economic strikers
were not permanently replaced prior to their discharge on
December 22, 2014. The striking employees are therefore
entitled to immediate reinstatement and backpay running
from December 19, 2014, the date of their unconditional
offer to return to work.
General Counsel asks me to review and overturn the
“Board’s current remedial rule” as applied to unlawfully
discharged economic strikers, so that the available
remedies are no longer contingent upon whether the
economic strikers were permanently replaced prior to the
date of their discharge. As discussed above, such a venture
is unnecessary. In any event, as an Administrative Law
Judge, I am bound to follow existing Board law which

77a
Appendix C
has not been overruled by the Supreme Court. Pathmark
Stores, Inc., 342 NLRB 378 fn. 1 (2004); see also Gas
Spring Co., 296 NLRB 84, 97-98 (1989), enfd. 908 F.2d
966 (4th Cir. 1990).
General Counsel also urges that I award search-forwork and work-related expenses to the economic strikers
who were unlawfully discharged, regardless of the
discharged strikers’ interim earnings and separately from
taxable net backpay, with interest. Such a component of
the remedy is appropriate based upon the Board’s recent
ruling to that effect in King Soopers, Inc., 364 NLRB
No. 93 at p. 8-9 (2016) (providing for such a remedy, to
be ordered on a retroactive basis). Backpay shall be
calculated in accordance with F.W. Woolworth Co., 90
NLRB 289 (1950), being awarded on a quarterly basis
with interest accruing as set forth in New Horizons, 283
NLRB 1173 (1987), and compounded in accordance with
Kentucky River Medical Center, 356 NLRB 6 (2010).
Interest on search-for-work and work-related expenses
shall be calculated in the same manner. Respondent will
also be required to absorb the adverse tax consequences,
if any, of receiving a lump-sum backpay award covering
periods longer than one year as set forth in Don Chavas,
LLC d/b/a Tortillas Don Chavas, 361 NLRB 101, 361
NLRB No. 10 (2014), and to file a report with the Social
Security Administration allocating the payments to the
appropriate calendar quarters.
CONCLUSIONS OF LAW
1. Respondent Michael Cetta, Inc. d/b/a Sparks
Restaurant (“Respondent”) is an employer engaged in

78a
Appendix C
commerce within the meaning of Section 2(2), (6), and (7)
of the Act.
2. United Food and Commercial Workers (“the
Union”) is a Labor Organization within the meaning of
Section 2(5) of the Act.
3. By failing and refusing to reinstate Gerardo
A larcon, Fredy A lbarracin, Marko Beljan, James
Campanella, Ian Collins, Elvis Cutra, Arlind Demaj,
Kristofer Fuller, Adem Gjevukaj, Valjon Hajdini, Elvi
Hoxhaj, Juan Iriarte, Ante Ivre, Amir Jakupi, Bardhyl
Kelmendi, Jeton Kerahoda, Milazim Kukaj, Rachid
Lamniji, Valon Lokaj, Silvio Lustica, Iber Mushkolaj, Gani
Neziraj, Kenan Neziraj, Xhavit Neziraj, Adnan Nuredini,
Juan Patino, Sadik Prelvukaj, Francisco Puente, Ermal
Qelia, Nagip Resulbegu, Khalid Seddiki, Youssef Semlalo
El Idrissi, Fatlum Spahija, Andrzej Stepien, Alim Tagani,
and Mergim Zeqiraj since their unconditional offer to
return to work on December 19, 2014, Respondent violated
Sections 8(a)(1) and (3) of the Act.
4. By denying the employees listed above their right
to be placed on a preferential hiring list since December
19, 2014, Respondent violated Sections 8(a)(1) and (3) of
the Act.
5. By discharging the employees listed above on or
about December 22, 2014, Respondent violated Sections
8(a)(1) and (3) of the Act.

79a
Appendix C
6. By soliciting employees to withdraw their support
for the Union, Respondent violated Section 8(a)(1) of the
Act.
7. The above violations are unfair labor practices
affecting commerce within the meaning of Sections 2(6)
and (7) of the Act.
REMEDY
Having found that Respondent engaged in an unfair
labor practice, I shall order it to cease and desist from such
conduct and to take certain affirmative action designed
to effectuate the policies of the Act.
Having found that the Respondent unlawfully refused
to reinstate Gerardo Alarcon, Fredy Albarracin, Marko
Beljan, James Campanella, Ian Collins, Elvis Cutra,
Arlind Demaj, Kristofer Fuller, Adem Gjevukaj, Valjon
Hajdini, Elvi Hoxhaj, Juan Iriarte, Ante Ivre, Amir
Jakupi, Bardhyl Kelmendi, Jeton Kerahoda, Milazim
Kukaj, Rachid Lamniji, Valon Lokaj, Silvio Lustica,
Iber Mushkolaj, Gani Neziraj, Kenan Neziraj, Xhavit
Neziraj, Adnan Nuredini, Juan Patino, Sadik Prelvukaj,
Francisco Puente, Ermal Qelia, Nagip Resulbegu, Khalid
Seddiki, Youssef Semlalo El Idrissi, Fatlum Spahija,
Andrzej Stepien, Alim Tagani, and Mergim Zeqiraj,
upon their unconditional offer to return to work, and that
Respondent unlawfully discharged these employees, I
shall order Respondent to offer them full reinstatement
to their former jobs, or, if those jobs no longer exist, to
substantially equivalent positions, without prejudice to

80a
Appendix C
their seniority or any other rights or privileges previously
enjoyed, discharging, if necessary, any replacements,
and make them whole for any loss of earnings and other
benefits. Backpay shall be calculated in accordance with
F.W. Woolworth Co., 90 NLRB 289 (1950), with interest
accruing at the rate prescribed in New Horizons, 283
NLRB 1173 (1987), and compounded daily as prescribed
in Kentucky River Medical Center, 356 NLRB 6 (2010).
In accordance with Don Chavas, LLC d/b/a Tortillas
Don Chavas, 361 NLRB 101, 361 NLRB No. 10 (2014),
Respondent shall also compensate the unlawfully
discharged employees for the adverse tax consequences,
if any, of receiving lump-sum backpay awards, and
file a report with the Social Security Administration
allocating backpay awards to the appropriate calendar
quarters for each employee. Pursuant to King Soopers,
Inc., 364 NLRB No. 93 (2016), Respondent shall further
compensate the employees named above for searchforwork and interim employment expenses, separately
from taxable net backpay and regardless of whether they
exceed the employees’ interim earnings, with interest at
the rate prescribed in New Horizons, compounded daily
as prescribed in Kentucky River Medical Center, above.
On these findings of fact and conclusions of law,
and on the entire record herein, I issue the following
recommended 27
27. If no exceptions are filed, as provided by Sec. 102.46 of
the Board’s Rules and Regulations, the findings, conclusions, and
recommended order shall, as provided in Sec. 102.48 of the Rules,
be adopted by the Board and all objections to them shall be waived
for all purposes.

81a
Appendix C
ORDER
Respondent Michael Cetta, Inc. d / b/a Sparks
Restaurant, New York, New York, its officers, agents,
successors and assigns, shall
1. Cease and desist from
(a) Discharging or otherwise discriminating against
employees for engaging in an economic strike.
(b) Denying employees engaged in an economic strike
their right to be placed on a preferential hiring list.
(c) Failing and refusing to reinstate employees
engaged in an economic strike after their unconditional
offer to return to work.
(d) Soliciting employees to withdraw their support
for the Union.
(e) In any other manner interfering with, restraining,
or coercing employees in the exercise of the rights
guaranteed in Section 7 of the Act.
2. Take the following affirmative action necessary to
effectuate the policies of the Act.
(a) Within 14 days from the date of the Board’s Order,
offer Gerardo Alarcon, Fredy Albarracin, Marko Beljan,
James Campanella, Ian Collins, Elvis Cutra, Arlind Demaj,
Kristofer Fuller, Adem Gjevukaj, Valjon Hajdini, Elvi
Hoxhaj, Juan Iriarte, Ante Ivre, Amir Jakupi, Bardhyl

82a
Appendix C
Kelmendi, Jeton Kerahoda, Milazim Kukaj, Rachid
Lamniji, Valon Lokaj, Silvio Lustica, Iber Mushkolaj, Gani
Neziraj, Kenan Neziraj, Xhavit Neziraj, Adnan Nuredini,
Juan Patino, Sadik Prelvukaj, Francisco Puente, Ermal
Qelia, Nagip Resulbegu, Khalid Seddiki, Youssef Semlalo
El Idrissi, Fatlum Spahija, Andrzej Stepien, Alim Tagani,
and Mergim Zeqiraj full reinstatement to their former
jobs, or, if those jobs no longer exist, to substantially
equivalent positions, without prejudice to their seniority
or any other rights or privileges previously enjoyed, and
discharging if necessary any replacements.
(b) Make the above employees whole for any loss of
earnings and other benefits suffered as a result of the
discrimination against them, in the manner set forth in
the Remedy section of this Decision.
(c) Compensate the affected employees for the
adverse tax consequences, if any, of receiving lump-sum
backpay awards, and file a report with the Social Security
Administration allocating the backpay awards to the
appropriate calendar quarters for each employee.
(d) Within 14 days from the date of this Order, remove
from its files any reference to the unlawful discharges, and
within 3 days thereafter, notify the employees in writing
that this has been done and that the discharges will not
be used against them in any way.
(e) Preserve and, within 14 days of a request, or
such additional time as the Regional Director may allow
for good cause shown, provide at a reasonable place

83a
Appendix C
designated by the Board or its agents, all payroll records,
social security payment records, timecards, personnel
records and reports, and all other records, including an
electronic copy of such records if stored in electronic form,
necessary to analyze the amount of backpay due under
the terms of this Order.
(f) Within 14 days after service by the Region, post, at
its facility in New York, New York, copies of the attached
notice marked “Appendix.” 28 Copies of the notice, on forms
provided by the Regional Director for Region 2, after being
signed by the Respondent’s authorized representative,
shall be posted by the Respondent and maintained for 60
consecutive days in conspicuous places, including all places
where notices to employees are customarily posted. In
addition to physical posting of paper notices, the notices
shall be distributed electronically, such as email, posting
on an intranet or an internet site, and/or other electronic
means, if the Respondent customarily communicates
with employees by such means. Reasonable steps shall be
taken by the Respondent to ensure that the notices are not
altered, defaced, or covered by any other material. In the
event that, during the pendency of these proceedings, the
Respondent has gone out of business or closed the facility
involved in these proceedings, the Respondent shall
duplicate and mail, at its own expense, a copy of the notice
to all current employees employed by the Respondent at
any time since December 19, 2014.
28. If this order is enforced by a judgment of a United States
court of appeals, the words in the notice reading “Posted by Order
of the National Labor Relations Board” shall read “Posted Pursuant
to a Judgment of the United States Court of Appeals Enforcing an
Order of the National Labor Relations Board.”

84a
Appendix C
(g) Within 21 days after service by the Region, file
with the Regional Director a sworn certification of a
responsible official on a form provided by the Region
attesting to the steps that the Respondent has taken to
comply.
APPENDIX
NOTICE TO EMPLOYEES
POSTED BY ORDER OF THE
NATIONAL LABOR RELATIONS BOARD
An Agency of the United States Government
The National Labor Relations Board has found that we
violated Federal labor law and has ordered us to post and
obey this notice.
FEDERAL LAW GIVES YOU THE RIGHT TO
Form, join, or assist a union
Choose representatives to bargain with us on
your behalf
Act together with other employees for your
benefit and protection
Choose not to engage in any of these protected
activities.
WE WILL NOT discharge or otherwise discriminate
against any of you for engaging in an economic strike or
other protected concerted activities.

85a
Appendix C
WE WILL NOT deny you the right to be placed on
a preferential hiring list when engaged in an economic
strike.
WE WILL NOT unlawfully refuse to reinstate you
if you are engaged in an economic strike and make an
unconditional offer to return to work.
WE WILL NOT solicit you to withdraw your support
for the Union.
WE WILL NOT in any other manner interfere with,
restrain, or coerce you in your exercise of the rights listed
above.
WE WILL within 14 days of the Board’s Order, offer
Gerardo Alarcon, Fredy Albarracin, Marko Beljan, James
Campanella, Ian Collins, Elvis Cutra, Arlind Demaj,
Kristofer Fuller, Adem Gjevukaj, Valjon Hajdini, Elvi
Hoxhaj, Juan Iriarte, Ante Ivre, Amir Jakupi, Bardhyl
Kelmendi, Jeton Kerahoda, Milazim Kukaj, Rachid
Lamniji, Valon Lokaj, Silvio Lustica, Iber Mushkolaj, Gani
Neziraj, Kenan Neziraj, Xhavit Neziraj, Adnan Nuredini,
Juan Patino, Sadik Prelvukaj, Francisco Puente, Ermal
Qelia, Nagip Resulbegu, Khalid Seddiki, Youssef Semlalo
El Idrissi, Fatlum Spahija, Andrzej Stepien, Alim Tagani,
and Mergim Zeqiraj full reinstatement to their former
jobs, or, if those jobs no longer exist, to substantially
equivalent positions, without prejudice to their seniority
or any other rights or privileges previously enjoyed, and
discharging if necessary any replacements.

86a
Appendix C
WE WILL make those employees whole for any loss
of earnings and other benefits resulting from our failure
to reinstate them after their unconditional offer to return
to work and from their discharge, less any net earnings,
plus interest.
WE WILL compensate those employees for the
adverse tax consequences, if any, of receiving lump-sum
backpay awards, and WE WILL file a report with the
Social Security Administration allocating the backpay
awards to the appropriate calendar quarters for each
employee.
WE WILL within 14 days from the date of this Order,
remove from our files any reference to the unlawful
discharge of those employees, and WE WILL within 3
days thereafter, notify each of them in writing that this
has been done and that the discharges will not be used
against them in any way.
MICHAEL CETTA, INC.
D/B/A SPARKS RESTAURANT
The Administrative Law Judge’s decision can be found
at www.nlrb.gov/case/02-CA-142626 or by using the QR
code below. Alternatively, you can obtain a copy of the
decision from the Executive Secretary, National Labor
Relations Board, 1015 Half Street, S.E., Washington, D.C.
20570, or by calling (202) 273-1940.
[SEE MATERIAL IN ORIGINAL SOURCE]

87a
Appendix
D OF PETITION
APPENDIX D —
DENIAL
FOR REHEARING IN THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF
COLUMBIA CIRCUIT, FILED ON AUGUST 14, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-1165
MICHAEL CETTA, INC.,
D/B/A SPARKS RESTAURANT,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.
September Term, 2018
NLRB-02CA142626,
NLRB-02CA144852
Filed On: August 14, 2019
Consolidated with 18-1171
BEFORE: Garland, Chief Judge; Henderson, Rogers,
Tatel, Griffith, Srinivasan, Millett, Pillard, Wilkins,
Katsas, and Rao, Circuit Judges

88a
Appendix D
ORDER
Upon consideration of petitioner’s petition for
rehearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.
PER CURIAM
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/				
Scott H. Atchue
Deputy Clerk

89a
E STATUTORY
APPENDIX E —Appendix
RELEVANT
PROVISIONS
ADDENDUM
NLRA § 8, 29 U.S.C. § 158:
(a) Unfair labor practices by employer. It shall be an
unfair labor practice for an employer—
(1) to interfere with, restrain, or coerce employees
in the exercise of the rights guaranteed in section
157 of this title;
…
(3) by discrimination in regard to hire or tenure of
employment or any term or condition of employment
to encourage or discourage membership in any
labor organization: Provided, That nothing in this
subchapter, or in any other statute of the United
States, shall preclude an employer from making
an agreement with a labor organization (not
established, maintained, or assisted by any
action defined in this subsection as an unfair labor
practice) to require as a condition of employment
membership therein on or after the thirtieth
day following the beginning of such employment
or the effective date of such agreement, whichever
is the later, (i) if such labor organization is the
representative of the employees as provided in
section 159(a) of this title, in the appropriate
collective-bargaining unit covered by such

90a
Appendix E
agreement when made, and (ii) unless following an
election held as provided in section 159(e) of this
title within one year preceding the effective date
of such agreement, the Board shall have certified
that at least a majority of the employees eligible to
vote in such election have voted to rescind the
authority of such labor organization to make such
an agreement: Provided further, That no employer
shall justify any discrimination against an employee
for non-membership in a labor organization (A) if
he has reasonable grounds for believing that such
membership was not available to the employee on
the same terms and conditions generally applicable
to other members, or (B) if he has reasonable
grounds for believing that membership was denied
or terminated for reasons other than the failure of
the employee to tender the periodic dues and the
initiation fees uniformly required as a condition of
acquiring or retaining membership….

91a
Appendix E
NLRA § 10, 29 U.S.C. § 160:
(a) Powers of Board generally.
The Board is empowered, as hereinafter provided, to
prevent any person from engaging in any unfair labor
practice (listed in section 158 of this title) affecting
commerce. This power shall not be affected by any
other means of adjustment or prevention that has been
or may be established by agreement, law, or otherwise:
Provided, That the Board is empowered by agreement
with any agency of any State or Territory to cede to
such agency jurisdiction over any cases in any industry
(other than mining, manufacturing, communications,
and transportation except where predominantly local
in character) even though such cases may involve labor
disputes affecting commerce, unless the provision of the
State or Territorial statute applicable to the determination
of such cases by such agency is inconsistent with the
corresponding provision of this subchapter or has received
a construction inconsistent therewith.
(e) Petition to court for enforcement of order;
proceedings; review of judgment.
The Board shall have power to petition any court of
appeals of the United States, or if all the courts of appeals
to which application may be made are in vacation, any
district court of the United States, within any circuit or
district, respectively, wherein the unfair labor practice
in question occurred or wherein such person resides
or transacts business, for the enforcement of such order
and for appropriate temporary relief or restraining order,

92a
Appendix E
and shall file in the court the record in the proceedings, as
provided in section 2112 of title 28. Upon the filing of such
petition, the court shall cause notice thereof to be served
upon such person, and thereupon shall have jurisdiction
of the proceeding and of the question determined therein,
and shall have power to grant such temporary relief or
restraining order as it deems just and proper, and to make
and enter a decree enforcing, modifying and enforcing
as so modified, or setting aside in whole or in part the
order of the Board. No objection that has not been
urged before the Board, its member, agent, or agency,
shall be considered by the court, unless the failure or
neglect to urge such objection shall be excused because
of extraordinary circumstances. The findings of the
Board with respect to questions of fact if supported by
substantial evidence on the record considered as a whole
shall be conclusive. If either party shall apply to the court
for leave to adduce additional evidence and shall show to
the satisfaction of the court that such additional evidence
is material and that there were reasonable grounds for
the failure to adduce such evidence in the hearing before
the Board, its member, agent, or agency, the court may
order such additional evidence to be taken before the
Board, its member, agent, or agency, and to be made a
part of the record. The Board may modify its findings as
to the facts, or make new findings by reason of additional
evidence so taken and filed, and it shall file such modified
or new findings, which findings with respect to questions
of fact if supported by substantial evidence on the record
considered as a whole shall be conclusive, and shall file its
recommendations, if any, for the modification or setting
aside of its original order. Upon the filing of the record with
it the jurisdiction of the court shall be exclusive and its

93a
Appendix E
judgment and decree shall be final, except that the same
shall be subject to review by the appropriate United States
court of appeals if application was made to the district
court as hereinabove provided, and by the Supreme Court
of the United States upon writ of certiorari or certification
as provided in section 1254 of title 28.
(f) Review of final order of Board on petition to court.
Any person aggrieved by a final order of the Board
granting or denying in whole or in part the relief sought
may obtain a review of such order in any United States
court of appeals in the circuit wherein the unfair labor
practice in question was alleged to have been engaged in
or wherein such person resides or transacts business, or
in the United States Court of Appeals for the District of
Columbia, by filing in such a court a written petition praying
that the order of the Board be modified or set aside. A copy
of such petition shall be forthwith transmitted by the clerk
of the court to the Board, and thereupon the aggrieved
party shall file in the court the record in the proceeding,
certified by the Board, as provided in section 2112 of title
28. Upon the filing of such petition, the court shall proceed
in the same manner as in the case of an application by
the Board under subsection (e), and shall have the same
jurisdiction to grant to the Board such temporary relief or
restraining order as it deems just and proper, and in like
manner to make and enter a decree enforcing, modifying,
and enforcing as so modified, or setting aside in whole or
in part the order of the Board; the findings of the Board
with respect to questions of fact if supported by substantial
evidence on the record considered as a whole shall in like
manner be conclusive.

94a
Appendix E
Administrative Procedures Act, 5 U.S.C. § 706:
To the extent necessary to decision and when presented,
the reviewing court shall decide all relevant questions of
law, interpret constitutional and statutory provisions, and
determine the meaning or applicability of the terms of an
agency action. The reviewing court shall—
(1) compel agency action unlaw fully w ithheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action, findings,
and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege,
or immunity;
(C) in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case
subject to sections 556 and 557 of this title or
otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent that the
facts are subject to trial de novo by the reviewing
court.

95a
Appendix E
In making the foregoing determinations, the court shall
review the whole record or those parts of it cited by a party,
and due account shall be taken of the rule of prejudicial
error. (Pub. L. 89–554, Sept. 6, 1966, 80 Stat. 393).
29 C.F.R. § 102.48(c):
Motions for reconsideration, rehearing, or reopening
the record. A party to a proceeding before the Board
may, because of extraordinary circumstances, move for
reconsideration, rehearing, or reopening of the record
after the Board decision or order.
(1) A motion for reconsideration must state w ith
particularity the material error claimed and with
respect to any finding of material fact, must specify the
page of the record relied on. A motion for rehearing
must specify the error alleged to require a hearing de
novo and the prejudice to the movant from the error.
A motion to reopen the record must state briefly the
additional evidence sought to be adduced, why it was
not presented previously, and that, if adduced and
credited, it would require a different result. Only
newly discovered evidence, evidence which has
become available only since the close of the hearing,
or evidence which the Board believes may have been
taken at the hearing will be taken at any further
hearing.

96a
Appendix E
29 C.F.R. § 102.45(b):
Contents of record. The charge upon which the
complaint was issued and any amendments, the complaint
and any amendments, notice of hearing, answer and any
amendments, motions, rulings, orders, the transcript of
the hearing, stipulations, exhibits, documentary evidence,
and depositions, together with the Administrative Law
Judge’s decision and exceptions, and any cross-exceptions
or answering briefs as provided in § 102.46, constitutes the
record in the case.

